<html>
<title> - READY AND RESILIENT?: EXAMINING FEDERAL EMERGENCY PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  READY AND RESILIENT?: EXAMINING FEDERAL EMERGENCY PREPAREDNESS AND 
                                RESPONSE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-38

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                             
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-744 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Bryan Koon, Director, Florida Division of Emergency 
  Management, Testifying on Behalf of The National Emergency 
  Management Association:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Chris P. Currie, Director, Emergency Management, National 
  Preparedness and Critical Infrastructure Protection, Homeland 
  Security and Justice Team, U.S. Government Accountability 
  Office:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                                Appendix

Questions From Ranking Member Bennie G. Thompson for W. Craig 
  Fugate.........................................................    49
Questions From Honorable James E. Clyburn for W. Craig Fugate....    61
 
  READY AND RESILIENT?: EXAMINING FEDERAL EMERGENCY PREPAREDNESS AND 
                                RESPONSE

                              ----------                              


                       Thursday, October 22, 2015

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Walker, Donovan, 
Thompson, and Watson Coleman.
    Also present: Representative Clyburn.
    Ms. McSally. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. Welcome to the 
other hearing going on on Capitol Hill this morning. The 
subcommittee is meeting today to examine Federal response 
capabilities for major disasters. I will now recognize myself 
for an opening statement.
    August 29 marked the 10th anniversary of Hurricane Katrina, 
the response to which was a failure at all levels of 
government. The storm took more than 1,800 lives, impacted 
millions of Gulf Coast residents, and cost an estimated $108 
billion--the most costly disaster in U.S. history.
    Ten years later, the Gulf Coast still bears the scars of 
this disaster. Since Katrina, much has changed in how we manage 
and respond to disasters. There have been major legislative 
reforms and improvements made to the emergency preparedness and 
response enterprise.
    The Post-Katrina Emergency Management Reform Act, or 
PKEMRA, gave FEMA more authority to lean forward and be more 
proactive as threats emerged.
    We have also seen an improvement in the way we collectively 
look at preparedness, through the development of the National 
Preparedness System and its associated National Preparedness 
Goal and Planning Frameworks, including the National response 
framework, assessment of core capabilities, and planning and 
exercising to identify and address gaps.
    Finally, the way information moves--especially through the 
use of social media--has changed how we communicate and 
interact with each other and how we get news and critical 
information.
    In emergencies, we use social media to relay information to 
first responders, communicate with loved ones, and request 
assistance. Response organizations, including FEMA and 
emergency managers Mr. Koon represents, use social media to 
quickly share public safety information and maintain direct 
communication with disaster survivors during and after an 
incident.
    As a whole, these changes have resulted in more coordinated 
and effective responses to more than 1,200 declared disasters 
in the 10 years since Katrina. Three years ago next week, 
Hurricane Sandy made landfall on the Eastern Seaboard, 
including areas represented by several of my colleagues on this 
subcommittee.
    The response to Sandy is in contrast to the failures of 
Hurricane Katrina. FEMA pre-deployed more than 900 personnel 
and established incident support bases and Federal staging 
areas to preposition commodities, generators and communications 
vehicles. These actions contributed to a more effect response.
    Despite these improvements, the response to Hurricane Sandy 
wasn't without its challenges. For example, issues related to 
fuel distribution and power restoration impacted responses and 
recovery efforts.
    At the request of this committee, the Government 
Accountability Office has been evaluating FEMA's response 
capabilities, particularly in light of authorities provided in 
PKEMRA. Some of this work is ongoing, but the GAO has issued 
reports on FEMA's workforce, potentially improper disaster 
assistance, coordination of emergency support function 
responsibilities of Federal agencies, and logistics to name a 
few.
    I look forward to hearing from Mr. Currie about GAO's 
reviews and his suggestions for ways to further improve our 
Federal response posture.
    This Nation faces innumerable threats, including natural 
disasters, terrorist attacks, emerging infectious diseases, and 
a porous border. These complex threats pose unique challenges. 
Administrator Fugate, I look forward to hearing how you are 
working to continue to improve FEMA so it is a nimble 
organization, prepared to respond along with Federal, State, 
local, private, and non-profit partners to the evolving 
challenges we face.
    I also want to commend you for FEMA's recent work 
responding to the devastating floods in the Carolinas. Our 
thoughts are with all those who have been impacted.
    With that, I welcome our distinguished witnesses here 
today. I look forward to your testimony, and our discussions on 
ways we can work together to continue to improve our response 
capabilities.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Thompson, for any opening statement he may have.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                            October 22, 2015
    August 29 marked the 10th anniversary of Hurricane Katrina, the 
response to which was a failure at all levels of government. The storm 
took more than 1,800 lives, impacted millions of Gulf Coast residents, 
and cost an estimated $108 billion--the most costly disaster in U.S. 
history. Ten years later, the Gulf Coast still bears the scars of this 
disaster.
    Since Katrina, much has changed in how we manage and respond to 
disasters. There have been major legislative reforms and improvements 
made to the emergency preparedness and response enterprise. The Post-
Katrina Emergency Management Reform Act (PKEMRA) gave FEMA more 
authority to ``lean forward'' and be more pro-active as threats emerge.
    We have also seen improvement in the way we collectively look at 
preparedness through the development of the National Preparedness 
System and its associated National Preparedness Goal and Planning 
Frameworks, including the National Response Framework; assessment of 
core capabilities; and planning and exercising to identify and address 
gaps.
    Finally, the way information moves, especially through use of 
social media, has changed how we communicate and interact with each 
other, and how we get news and critical information. In emergencies, we 
use social media to relay information to first responders, communicate 
with love ones, and request assistance. Response organizations, 
including FEMA and the emergency managers Mr. Coons represents, use 
social media to quickly share public safety information and maintain 
direct communication with disaster survivors during and after an 
incident.
    As a whole, these changes have resulted in more coordinated and 
effective responses to the more than 1,200 declared disasters in the 10 
years since Katrina.
    Three years ago next week, Hurricane Sandy made landfall on the 
Eastern Seaboard, including areas represented by several of my 
colleagues on this subcommittee. The response to Sandy is in contrast 
to the failures of Hurricane Katrina. FEMA pre-deployed more than 900 
personnel and established incident support bases and Federal staging 
areas to pre-position commodities, generators, and communications 
vehicles. These actions contributed to a more efficient response.
    Despite these improvements, the response to Hurricane Sandy wasn't 
without its challenges. For example, issues related to fuel 
distribution and power restoration impacted response and recovery 
efforts.
    At the request of this committee, the Government Accountability 
Office has been evaluating FEMA's response capabilities, particularly 
in light of authorities provided in PKEMRA. Some of this work is on-
going, but GAO has issued reports on FEMA's workforce, potentially 
improper disaster assistance, coordination of Emergency Support 
Function responsibilities of Federal agencies, and logistics, to name a 
few. I look forward to hearing from Mr. Currie about GAO's reviews and 
his suggestions for ways to further improve our Federal response 
posture.
    This Nation faces innumerable threats including natural disasters, 
terrorist attacks, emerging infectious diseases, and a porous border. 
These complex threats pose unique challenges. Administrator Fugate, I 
look forward to hearing how you are working to continue to improve FEMA 
so it is a nimble organization prepared to respond, along with Federal, 
State, local, private, and non-profit partners, to the evolving 
challenges we face.
    I also want to commend you for FEMA's recent work responding to the 
devastating flooding in the Carolinas. Our thoughts are with all who 
have been impacted.
    With that, I welcome our distinguished witnesses here today. I look 
forward to your testimony and our discussion of ways we can work 
together to continue to improve response capabilities.

    Mr. Thompson. Thank you very much. Good morning, Madam 
Chairman. I would like to thank you for holding this hearing to 
assess Federal preparedness, response, mitigation, and recovery 
capabilities that have evolved since Hurricane Katrina.
    I am pleased that all of the witnesses are able to join us 
today, particularly Administrator Fugate. Good seeing you 
again. Yesterday, Secretary Johnson, however, appeared before 
the full committee for the first time this Congress, and today 
marks Administrator Fugate's also first appearance.
    Although I am troubled that the committee has not had the 
opportunity to engage agency principles until almost halfway 
through the Congress, I am pleased that we are beginning to do 
so and look forward to additional hearings next year.
    I would also like to welcome the assistant Democratic 
leader, James Clyburn, from South Carolina, to the Committee on 
Homeland Security and ask unanimous consent that he be 
permitted to participate in today's hearing.
    Ms. McSally. Without objection.
    Mr. Thompson. Thank you. Ten years ago, Hurricane Katrina 
destroyed communities along the Gulf Coast, including my home 
State of Mississippi. Confusion regarding roles and 
responsibilities at every level of government, gaps in 
emergency communication technologies, and lack of effective 
coordination between Federal and State responders undermined 
immediate response efforts.
    Large contractors from outside the Gulf Coast were brought 
in to do the work that local businesses not only could do, but 
needed to do themselves, to rebuild and restore local 
economies. Recovery activities were slow and dragged out, and 
too often diverse populations and small local businesses were 
left out of programs to rebuild their own communities.
    Almost immediately, a consensus emerged that the Federal 
response was woefully inadequate. Congress responded by passing 
the Post-Katrina Emergency Management Reform Act, which 
restructured FEMA and our larger emergency response 
infrastructure.
    Three years ago, FEMA's efforts to right the wrongs of 
Katrina were tested when Hurricane Sandy slammed into the East 
Coast. The response reflected significant progress in the 
Federal Government's ability to support State and local 
disaster response activities and recovery efforts were 
ultimately bolstered by the Sandy Recovery Improvement Act, 
which provided for expedited recovery opportunities.
    Nevertheless, Federal response and recovery capabilities 
continue to face serious challenges. For several years, I have 
raised concern about FEMA's disaster workforce and whether or 
not they are receiving adequate training.
    I understand that FEMA has implemented policies to improve 
its training and management of the reservist program, but many 
people have left the reservist workforce in response.
    Moreover, a recent GAO report revealed gaps in recruitment 
of DHS surge force capability and challenges with attrition and 
costs for FEMA CORE program. These workforce retention issues, 
coupled with FEMA's morale challenges, will jeopardize FEMA's 
future disaster response capabilities.
    Additionally, I continue to have concerns about FEMA's 
efforts to ensure that small locally-owned businesses in areas 
affected by disaster have the opportunities to compete for 
contracts to rebuild their communities.
    According to the GAO, FEMA still cannot determine which 
companies are indeed local to an area affected by disaster, and 
pre-Katrina requirements that pre-disaster contracts be 
positioned to local contracts is not consistently enforced.
    FEMA has to work harder to ensure the local small 
businesses are part of the recovery process, and do more to 
enforce limitations on noncompetitive disaster contracts.
    As I close, Madam Chair, let me say that Director Fugate's 
tenure there has added stability to the agency. Not without 
challenges, he is available. There are some differences. We 
will talk about some of those differences today. But we have 
needed, for a long time, a steady hand. He has provided that 
part of it.
    Some of the hiccups are kind of downstream, and we will 
talk a little bit about those today. But nonetheless, we are a 
better agency because of the Katrina and Sandy experience. Our 
goal is to continue to be that agency that Americans can count 
on in their time of need.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 22, 2015
    Yesterday, Secretary Johnson appeared before the full committee for 
the first time this Congress and today marks Administrator Fugate's 
first appearance.
    Although I am troubled that the committee has not had the 
opportunity to engage agency principals until almost half-way through 
the Congress, I am pleased that we are beginning to do so and look 
forward to additional hearings next year.
    Ten years ago, Hurricane Katrina destroyed communities along the 
Gulf Coast, including in my home State of Mississippi.
    Confusion regarding roles and responsibilities at every level of 
government, gaps in emergency communications technologies, and lack of 
effective coordination between Federal and State responders undermined 
immediate response efforts.
    Large contractors from outside the Gulf Coast were brought in to do 
the work that local businesses not only could do, but needed to do 
themselves to rebuild and restore local economies.
    Recovery activities were slow and dragged out, and too often 
diverse populations and small, local businesses were left out of 
programs to rebuild their own communities.
    Almost immediately, a consensus emerged that the Federal response 
was woefully inadequate.
    Congress responded by passing the Post-Katrina Emergency Management 
Reform Act, which restructured FEMA and our larger emergency response 
infrastructure.
    Three years ago, FEMA's efforts to right the wrongs of Katrina were 
tested when Hurricane Sandy slammed into the East Coast.
    The response reflected significant progress in the Federal 
Government's ability to support State and local disaster response 
activities, and recovery efforts were ultimately bolstered by the Sandy 
Recovery Improvement Act, which provided for expedited recovery 
opportunities.
    Nevertheless, Federal response and recovery capabilities continue 
to face serious challenges.
    For several years, I have raised concerns about FEMA's disaster 
workforce and whether or not they receive adequate training.
    I understand that FEMA has implemented policies to improve its 
training and management of the Reservist Program, but many people have 
left the Reservist Workforce in response.
    Moreover, a recent GAO report revealed gaps in recruitment for DHS 
Surge Force Capacity and challenges with attrition and cost for the 
FEMA Corps program.
    These workforce retention issues, coupled with FEMA's morale 
challenges, will jeopardize FEMA's future disaster response 
capabilities.
    Additionally, I continue to have concerns about FEMA's efforts to 
ensure that small, locally-owned businesses in areas affected by 
disaster have the opportunity to compete for contracts to rebuild their 
communities.
    According to the GAO, FEMA still cannot determine which companies 
are indeed ``local'' to an area affected by disaster and PKEMRA's 
requirements that pre-disaster contracts be transitioned to local 
contracts is not consistently enforced.
    FEMA has to work harder to ensure the local small businesses are 
part of the recovery process and do more to enforce PKEMRA's 
limitations on noncompetitive disaster contracting.
    Disaster recovery will be more inclusive and cost-effective as a 
result.
    Finally, despite the on-going challenges the FEMA continues to 
tackle, I would like to take this opportunity to thank Administrator 
Fugate for his tenacious efforts to improve how FEMA carries out its 
mission.
    Following the failed Federal response to Hurricane Katrina 10 years 
ago, much of the American public lost confidence in the ability of FEMA 
and the Federal Government to render aid when it was needed most.
    The FEMA-coordinated Federal response to Hurricane Sandy 7 years 
later--though not perfect--restored much of the confidence lost after 
Hurricane Katrina.
    Administrator Fugate, you deserve much of the credit for that.
    To that end, I will be interested in learning what efforts you are 
undertaking now to ensure that FEMA continues down the right path 
during the next administration.

    Ms. McSally. Thank you, Mr. Thompson. Other Members of the 
subcommittee are reminded that opening statements may be 
submitted for the record. We are pleased to have a very 
distinguished panel before us today on this important topic.
    Administrator Craig Fugate was confirmed by the U.S. Senate 
and began his service as administrator of FEMA in May 2009. 
Prior to coming to FEMA, Administrater Fugate served as 
director of the Florida Division of Emergency Management. Mr. 
Fugate began his emergency management career as a volunteer 
firefighter, paramedic, and a lieutenant with the Alachua--did 
I say that right?--County fire rescue.
    Mr. Bryan Koon has served as the director of the Florida 
Division of Emergency Management since February 2011. Prior to 
joining the division, he worked with Wal-Mart Stores, Inc. for 
5 years as operations manager and director of emergency 
management.
    Mr. Koon worked at the White House Military Office for 7 
years, where he was the watch officer in the President's 
emergency operations center while on active duty with the U.S. 
Navy. Go Air Force--no, all right, sorry. Put that in the 
Congressional Record. He then spent 2 years as a training 
officer for Presidential contingency programs, conducting 
training and exercising for the White House Military Office, 
United States Secret Service, Federal Emergency Management 
Agency, and others.
    Mr. Koon is currently serving as the president of the 
National Emergency Management Association and is testifying in 
that capacity today.
    Mr. Christopher Currie is the director of the GAO's 
Homeland Security and Justice team, where he leads the agency's 
work on emergency management and National preparedness issues. 
In this role, Chris and his team of GAO auditors evaluate 
Federal efforts and programs to prevent, plan for, and respond 
to natural and man-made disasters.
    Prior to this, he was acting director in GAO's Defense 
Capabilities and Management team, where he led reviews of DOD 
programs.
    The Chair now recognizes Administrator Fugate for 5 
minutes.

   STATEMENT OF HON. W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Well, thank you, Chairman and Members. 
Congressman Thompson, we go way back when I first started in 
FEMA.
    As we look back at Katrina, there are lot of questions: 
Well, why did it go wrong, who was at fault? It is easy to 
point to an individual or to a system and say this failed. I 
think you have to get to why we failed. It is an inherent 
danger we face in dealing with disaster preparedness.
    I am seeing it play out even today. That is, we prepare for 
what we are capable of, and we hope it is never any worse. It 
is interesting that even after Sandy, where we were barely able 
to mobilize the resources fast enough to get to the disaster, 
we are continuing to look at how we reduce our footprint, how 
do we reduce our overhead, how do we reduce our budget.
    I caution people in going, look, this is not a retail 
delivery system. Disasters don't occur with a schedule, where 
they are planned or where you know they are going to happen.
    There is a certain inherent risk to wanting precision at 
the expense of being fast. Much of what you are going to find 
where you find errors at FEMA is not because we are not trying 
to be good stewards of the taxpayers' dollars. It is that we 
understand that speed is critical in stabilizing a disaster.
    It will not be precise, it is rarely going to be cost-
effective as it would be on a day-to-day basis, and it is going 
to have errors. Now, that is not an excuse, that is just a 
reality. So we always balance with precision is great, but at 
what expense to getting to the survivors.
    We have driven down our error rate on individual assistance 
tremendously, but it is still high for the program; more than 
we want to accept.
    But I also know that the more we get that lower, it will 
mean--and we will see this in South Carolina, where people who 
don't have a driver's license, who may not know where their 
Social Security number is, and are applying for assistance and 
are eligible for that assistance--the system is going to not be 
able to be as responsive. We are going to have to basically 
then run that in a less efficient manner to try to help those 
people.
    We run into issues where families don't have deeds because 
their property got passed down in the family and nobody went to 
the courthouse and then we can't prove ownership of the home. 
We use those tools to avoid fraud but, at the same time, we 
have to balance that against the world we are in. So our 
challenge is, is when we build for disaster we have to build 
for what can happen. If we make a decision we are going to 
build for what we can afford, then the expectation that it 
scales up doesn't work.
    We know that our systems have to be robust on the large end 
and they have to be built around the people we serve, and the 
survivors. That environment has all kinds of inherent risk, 
where you try to put the controls in. But I also caution, the 
more accuracy, the more precision we try to get, the slower the 
response will become and the more likely that eligible people 
may not get the assistance they need in the time frames they 
need.
    The other part of this is that we have learned is, we have 
to plan for the communities we live in, not what fits our plan. 
One of the great tragedies we saw that occurred during Katrina 
was, for many communities that were not basically well-
represented, disadvantaged--low-income areas that probably many 
people didn't go to very often--weren't in the plan.
    The reason was, we kept putting them in the annexes. We 
would look at people with disabilities and go, ``Well, you are 
hard to do so we are going to put an annex in our plan for 
you.''
    ``You have pets. Well, that is going to be a problem at the 
shelter, so we are going to write annex on pets.'' ``You got 
frail elderly. Well, they are not easy to take care of so we 
are going to write an annex for them.''
    When I asked the question, when I got to FEMA--is, well, 
why are putting all these hard-to-do in annexes? Why did we 
write a plan for easy instead of the communities we live in? 
The answer was, we had provided as guidance how to plan for, 
essentially, middle-class people with insurance, with a high 
school education or better, who were English-proficient, who 
had a car and generally had resources to take care of 
themselves.
    We didn't address the most vulnerable part of our 
community. So the other part of our work is to plan for what 
can happen, not what we are capable of doing. But the other 
piece of that is, you plan for the communities you live in, you 
don't make the community fit your plan.
    If you find yourself putting groups into an annex you 
fundamentally didn't get the whole picture of what your job is 
to do. That means you have to focus not on the easy-to-do, but 
on what the community requires.
    So with that, Madam Chair, I look forward to questions.
    We are an imperfect organization dealing with the inherent 
uncertainties of disaster response, but I can tell you on 
behalf of the FEMA staff nobody in this organization is 
shirking from their duties to do the best they can when the 
bell rings and the country needs us.
    [The prepared statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                            October 22, 2015
                              introduction
    Chairman McSally, Ranking Member Payne, and Members of this 
distinguished subcommittee, my name is Craig Fugate, and I am the 
administrator of the Department of Homeland Security's (DHS) Federal 
Emergency Management Agency (FEMA). Thank you for the opportunity to 
appear before you today to discuss FEMA's preparedness and response 
efforts post-Hurricane Katrina.
    As you are aware, this year marked the tenth anniversary of 
Hurricane Katrina. The wide-spread devastation of Katrina affected 
millions of people along the central Gulf Coast of the United States, 
and exposed the Nation's vulnerabilities in how we prepare for, protect 
against, respond to, recover from, and mitigate disasters. However, 
over the last decade, with the support of Congress and the additional 
authorities provided, including the Post-Katrina Emergency Management 
Reform Act of 2006 (PKEMRA) and the Sandy Recovery Improvement Act of 
2013 (SRIA), FEMA continues to significantly improve the way we respond 
to disasters so that communities are able to recover as quickly as 
possible and build back safer and more resilient in the long-term.
    There is a shared recognition that FEMA cannot only plan for events 
we are capable of responding to; rather, we must plan for catastrophic 
events that will overwhelm capabilities at all levels of the government 
and private sector and challenge even the most scalable structures and 
systems. Further, we must constantly enhance preparedness, test 
systems, and exercise capabilities so we can support the whole 
community following a catastrophic event. Our systems and capabilities 
must be designed so that we are able to execute the mission whenever 
and wherever needed, including in austere conditions.
    We continue to work collaboratively with our stakeholders, across 
the whole community, to ensure our Nation is better prepared for 
current and future risks. By helping to build the capacity and 
capabilities of our State, local, Tribal, and territorial partners, we 
are empowering communities and citizens across the Nation--which, I 
believe, will have a far greater impact than the Federal Government 
alone ever will.
    In my testimony today, I hope to highlight some of the ways in 
which our agency is transforming into a better-prepared, more survivor-
centric agency that is capable of effectively responding to 
catastrophic disasters.
                            leaning forward
Post-Katrina Emergency Management Reform Act (PKEMRA)
    The importance of PKEMRA cannot be overstated, and we are grateful 
to Congress for the additional authorities this legislation provided 
FEMA to become an even more effective agency in carrying out its 
mission. PKEMRA was enacted, at least in part, due to challenges 
identified during FEMA's response to Hurricane Katrina. As clearly 
demonstrated before, during, and after Hurricane Katrina, FEMA needed 
additional, more robust authorities to lean forward as a Federal 
agency.
    PKEMRA provided FEMA clearer guidance on its responsibilities and 
priorities, and the authorities and tools we needed to become a better 
partner to our State, local, Tribal, and territorial governments. 
PKEMRA required several major changes and established FEMA's place 
within DHS. First, PKEMRA consolidated many of the responsibilities of 
DHS's Preparedness Directorate under FEMA, returning programs that had 
been removed, as well as adding significant new authorities and new 
training, exercise, and grant programs. This has enabled greater Unity 
of Effort for National preparedness across the entire Department.
    Additionally, existing activities were reorganized to form FEMA's 
Response, Recovery, and Logistics Management Directorates to better 
focus response and recovery efforts. PKEMRA also provided us the 
authority to establish a Private Sector Office to better foster 
cooperation with businesses and non-profit organizations. And notably, 
PKEMRA allowed FEMA to add a disability coordinator position to expand 
capacity to address the needs of individuals with access and functional 
needs.
    In addition, in 2008, FEMA led the development of the National 
Response Framework (NRF), which replaced the National Response Plan of 
2004 and the Federal Response Plan of 1992. And as this subcommittee is 
aware, the NRF was revised in 2013, incorporating, among other things, 
a focus on the whole community and core capabilities.
    PKEMRA also called for the establishment of ``a Surge Capacity 
Force for deployment of individuals to respond to natural disasters, 
acts of terrorism, and other man-made disasters, including catastrophic 
incidents.'' The Surge Capacity Force (SCF) provides the ability to 
rapidly expand and supplement FEMA's incident workforce with employees 
from other Federal agencies in a catastrophic event.
    The SCF activated for the first time in November 2012, deploying 
1,210 Department of Homeland Security (DHS) personnel, including 78 
FEMA support staff, to provide assistance to Hurricane Sandy survivors 
in New York.
    The most important measure of the success of the SCF during Sandy 
response and recovery efforts is the quantity and quality of assistance 
provided to survivors in the aftermath of Sandy. SCF volunteers were 
crucial to the success of Federal response and recovery activities. At 
the height of the deployment, SCF personnel accounted for approximately 
35 percent of the community relations teams in New York. These SCF 
volunteers were often the first source of help and information to reach 
survivors.
Sandy Recovery Improvement Act of 2013 (SRIA)
    In January 2013, Congress passed, and President Obama signed, the 
Sandy Recovery Improvement Act, or ``SRIA'', into law, authorizing 
several significant changes to the way FEMA delivers disaster 
assistance. SRIA is one of the most significant pieces of legislation 
impacting disaster response and recovery since PKEMRA and builds upon 
the Robert T. Stafford Emergency Relief and Disaster Assistance Act.
    SRIA, and the additional authorities it provides, is aiding 
recovery efforts associated with recent disasters such as Hurricane 
Sandy and the floods that impacted the States of Colorado and South 
Carolina. SRIA's various provisions are intended to improve the 
efficacy and availability of FEMA disaster assistance, making the most 
cost-effective use of taxpayer dollars. Most notably, SRIA directs FEMA 
to provide more objective criteria for evaluating the need for 
assistance to individuals, to clarify the threshold for eligibility, 
and to speed a declaration of a major disaster or emergency under the 
Stafford Act.
    One clear example of SRIA's effective use of taxpayer dollars is 
the Public Assistance Permanent Work Alternative Procedure provision 
that provides substantially greater flexibility in use of Federal funds 
for Public Assistance applicants and far less administrative burden and 
costs for all parties--if applicants accept grants based on fixed, 
capped estimates. To date, FEMA is funding billions in Public 
Assistance Permanent Work Alternative Procedure projects in States such 
as New York and Louisiana.
                 preparing our nation for future risks
    The administration remains steadfastly committed to strengthening 
the security and resilience of the United States by systematically 
preparing for the threats and hazards that pose the greatest risk to 
the security of our Nation. In the future, when we respond to events 
like Hurricane Katrina, Superstorm Sandy, and the floods we've seen 
this month in South Carolina, it will not just be FEMA on the ground 
supporting survivors. Our partners from across Government, the private 
sector and non-governmental organizations are right there with us; 
every day citizens are right there with us helping their neighbors.
    After the changes ushered in following PKEMRA, FEMA--in 
coordination with its partners across the whole community--developed 
the National Preparedness System. As we continue to develop and 
strengthen the National Preparedness System, we recognize this 
collective effort--that everyone from the individual to the first 
responder to me--has a role to play in preparing the Nation. With so 
many people involved and so much at stake, it is important to establish 
a common goal.
    This all-of-Nation approach to preparedness, ushered in by PKEMRA, 
is re-enforced in Presidential Policy Directive (PPD)-8: National 
Preparedness. In PPD-8, the President called for greater integration 
and a shared understanding for addressing threats and hazards across 
all mission areas--prevention, protection, mitigation, response, and 
recovery--in order to make the most effective use of the Nation's 
limited resources and to achieve Unity of Effort. PPD-8 has several 
parts, some FEMA already completed with its partners and others which 
are on-going. PPD-8 has five key parts: The National Preparedness Goal, 
the National Preparedness System, the National Planning Frameworks and 
Federal Interagency Operational Plans, the National Preparedness 
Report, and a Campaign to Build and Sustain Preparedness. All five 
parts are interrelated. The National Preparedness Goal defines the end 
we wish to achieve in preparedness; the National Preparedness System 
describes the tools and programs to achieve the Goal; the five National 
Planning Frameworks and Federal Interagency Operational Plans describe 
how we deliver and use the capabilities developed through the System; 
the National Preparedness Report provides the annual progress of how we 
are doing in achieving the Goal; and lastly the Campaign to Build and 
Sustain Preparedness focuses on public outreach, community-based and 
private-sector programs to enhance National resilience, as well as 
organize National research and development efforts on preparedness.
National Preparedness Goal
    The National Preparedness Goal (the Goal), is the cornerstone of 
the National Preparedness System. FEMA released the first edition of 
the Goal in October 2011; and, just this month, FEMA and its partners 
released the second edition of the Goal. The Goal describes a vision 
for preparedness Nation-wide and identifies the core capabilities 
necessary to achieve that vision across the five mission areas.
    Our goal itself is succinct and remains unchanged: ``A secure and 
resilient nation with the capabilities required across the whole 
community to prevent, protect against, mitigate, respond to, and 
recover from the threats and hazards that pose the greatest risk.''
    The second edition of the Goal represents a refresh from the 2011 
version and incorporates critical edits identified through real-world 
events, lessons learned, and continuing implementation of the National 
Preparedness System. Some noteworthy examples of these edits include 
the expanded inclusion of cybersecurity considerations, the addition of 
a new core capability for response (Fire Management and Suppression), 
and the emphasis to include innovations from science and technology 
advances. The updated Goal identifies 32 distinct activities, called 
core capabilities, which are needed to address our greatest risks. The 
core capabilities serve as preparedness tools and provide a common 
language for preparedness activities. The National Preparedness Goal 
defines where we want to be as a Nation. To achieve the goal of a 
secure and resilient Nation, FEMA and its partners are building the 
guidance, programs, processes, and systems that support each component 
of the National Preparedness System.
    The National Preparedness System begins with identifying and 
assessing risk and estimating capability requirements. One of the key 
programs developed under the System is the Threat and Hazard 
Identification and Risk Assessment (THIRA). The THIRA process helps 
communities identify threats and hazards and determine capability 
targets and resource requirements necessary to address anticipated and 
unanticipated risks. Our State partners then assess their currently 
capability levels against their THIRA targets in the State Preparedness 
Report (SPR). Once each jurisdiction has determined capability targets 
through the THIRA process, the jurisdiction estimates its current 
capability levels against those targets in its SPR. The SPR is an 
annual self-assessment of State preparedness based on the targets set 
in the THIRAs. PKEMRA requires an SPR from any State or territory 
receiving Federal preparedness assistance administered by DHS.
    Taken together, the THIRA and SPR support the National Preparedness 
System by helping to identify State and territorial preparedness 
capability levels and gaps. States, territories, and the Federal 
Government use this information to help make programmatic decisions to 
build and sustain capabilities, plan to deliver capabilities, and 
validate capabilities. States and territories submit their THIRA and 
SPR annually to FEMA. The summary results are published in the annual 
National Preparedness Report. Additionally, FEMA shares THIRA and SPR 
data across the Federal Government and uses the results to guide 
strategic direction for programs that help States close preparedness 
capability gaps.
    The next component of the National Preparedness System is to build 
and sustain critical capabilities at all levels. FEMA's preparedness 
grant programs have contributed significantly to the overall security 
and preparedness of the Nation. We are more secure and better prepared 
to prevent, protect against, mitigate, respond to, and recover from the 
full range of threats and hazards the Nation faces than we have been at 
any time in our history. As a Nation, we plan better, organize better, 
equip better, train better, and exercise better, resulting in improved 
National preparedness and resilience.
    Much of this progress has come from leadership at the State and 
local levels, fueled by FEMA's grant programs. Over the past 12 years, 
Congress, through the Department of Homeland Security (DHS), has 
provided State, territorial, local, and Tribal governments with more 
than $36 billion. We have enabled States and local communities to build 
and enhance capabilities by acquiring needed equipment, funding, 
training opportunities, developing preparedness and response plans, 
exercising and building relationships across city, county, and State 
lines.
    Although Federal funds represent just a fraction of what has been 
spent on homeland security across the Nation overall, these funds have 
helped to shift towards a culture of preparedness in the United States. 
Response and recovery efforts from Hurricane Sandy and countless other 
recent events bear witness to the improved capabilities that 
preparedness grants have supported.
    Because grantees must link grant investments to capability gaps or 
requirements they have identified for the core capabilities as part of 
the THIRA and SPR, we can measure grantees' implementation of the 
System and annual progress in meeting the goals they have established 
for each of the core capabilities in the Goal.
    To build leadership and capacity in States and communities, FEMA 
has continued America's PrepareAthon!, the successful grassroots 
campaign for action to increase community preparedness and resilience 
with the second annual National day of action aligned with the 
culmination of National Preparedness Month in September. Thanks to the 
National Preparedness Month Congressional co-chairs, including Chairman 
McSally, Ranking Member Payne, and other Members of this distinguished 
subcommittee for the continued commitment and leadership of this 
important educational campaign.
    This year, more than 23 million participants throughout the United 
States and Territories have been registered to take action to prepare 
for disasters through America's PrepareAthon! and its partners. As part 
of America's PrepareAthon!, States, Tribes, cities, and counties across 
the country planned community-wide events bringing together schools, 
the business community, city government, faith leaders, hospitals, 
individuals and families, and others to participate in community-wide 
preparedness drills and activities for hazards that are relevant to 
their area. America's PrepareAthon! works to build a more resilient 
Nation by increasing the number of individuals who understand which 
disasters could happen in their community, know what to do to be safe 
and mitigate damage, take action to increase their preparedness, and 
participate in community resilience planning.
    In addition, FEMA continues to improve adoption, performance, and 
accessibility of the Integrated Public Alert and Warning System 
(IPAWS). IPAWS is a collection of standards and technologies for 
emergency alert systems. In 2014, FEMA worked with Federal, State, 
local, territorial, and Tribal alerting authorities to extend the 
Integrated Public Alert and Warning System to 49 States, Puerto Rico, 
and the District of Columbia. Over 400 distinct emergency response 
entities have become alerting authorities. Since June 2012, the 
National Weather Service has used the system to distribute more than 
11,000 imminent weather threat warnings, notifying citizens of 
tornados, flash floods, dust storms, and other extreme weather events.
    In addition to building and sustaining capabilities, we are working 
hard to plan for delivering capabilities. FEMA continues to coordinate 
with partners across the Nation through a unified approach and common 
terminology to plan for all-threats and hazards and across all mission 
areas of Prevention, Protection, Mitigation, Response, and Recovery.
National Planning Frameworks
    In 2013, FEMA published the National Planning Frameworks, setting 
the strategy and doctrine for building, sustaining, and delivering the 
core capabilities identified in the Goal. By describing the 
coordinating structures and alignment of key roles and responsibilities 
for the whole community across all mission areas, the Frameworks foster 
a shared understanding of our roles and responsibilities from the fire 
house to the White House. They help us understand how we, as a Nation, 
coordinate, share information and work together--which ultimately 
results in a more secure and resilient Nation.
    Building on the National Planning Frameworks, FEMA coordinated with 
its Department and Agency partners, the development of the Federal 
Interagency Operational Plans (FIOPs) for Prevention, Mitigation, 
Response, and Recovery mission areas. The FIOPs define how the Federal 
Government delivers core capabilities for the each mission area. 
Specifically, each FIOP describes the concept of operations for 
integrating and synchronizing existing Federal capabilities to support 
State, local, Tribal, territorial, insular area, and Federal plans, and 
is supported by Federal Department-level operational plans, where 
appropriate.
    Currently, FEMA is coordinating efforts to refresh the National 
Planning Frameworks and the FIOPs. The updates account for changes in 
policy and legislation since they were last published, consistent 
formatting across all mission areas, critical edits from real-world 
events, and lessons learned. FEMA is also working with DHS's National 
Protection and Programs Directorate to finalize the FIOP for the 
Protection mission area.
National Preparedness Report (NPR)
    The 2015 NPR is the fourth iteration of this annual report. This 
year's report places particular emphasis on highlighting preparedness 
progress in implementing the National Planning across the five mission 
areas and 6 overarching findings focused on National-level trends.
    The 2015 NPR found that the Nation continues to make progress 
building preparedness in key core capabilities including: Environmental 
Response/Health and Safety, Intelligence and Information Sharing, and 
Operational Coordination. Along with the five core capabilities 
identified from last year including Interdiction and Disruption, On-
scene Security and Protection, Operational Communications, Public and 
Private Services and Resources, and Public Health and Medical Services, 
these eight core capabilities represent areas in which the Nation has 
developed acceptable levels of performance for critical tasks, but 
which face potential performance declines if not maintained and updated 
to address new challenges.
    Yet challenges remain. The 2015 NPR also identified six core 
capabilities as areas for improvement. Cybersecurity, Housing, 
Infrastructure Systems, and Long-term Vulnerability Reduction have 
remained National areas for improvement for 4 consecutive years, and 
Economic Recovery reemerged as an area for improvement from the 2012 
and 2013 National Preparedness Reports. Access Control and Identity 
Verification is a newly-identified National area for improvement.
    Additionally, the NPR confirmed that recent events, including the 
epidemic of the Ebola virus, highlighted challenges that remain in 
addressing non-Stafford Act events--despite the NRF always being in 
effect. These complex events have taken place over extended periods of 
time and often across large geographic areas, with uncertainty 
surrounding the role of existing coordination structures and 
authorities for multi-agency activity for non-Stafford Act events.
    The strengths and areas for improvement in the NPR will be used to 
inform planning efforts, focus priorities for Federal grants, and 
enable informed collaboration among stakeholders working together to 
improve the Nation's preparedness. Continually reviewing and updating 
the implementation of the National Preparedness System ensures that we 
continue to improve our capabilities and together become a more 
resilient Nation.
             transforming our response efforts post-katrina
Improvements Within FEMA's Incident Management Assistance Teams
    After Hurricane Katrina, Congress required the establishment of 
``Emergency Support and Response Teams'' that would address 
deficiencies revealed by the Katrina response. In accordance with these 
requirements and lessons learned from other major incidents, FEMA 
formally established the Incident Management Assistance Team (IMAT) 
program in 2009. By 2011, FEMA designated three National and 13 
Regional IMATs. Following lessons learned from Hurricane Sandy, FEMA 
undertook a pilot project to restructure the IMATs. Here, FEMA's 
primary goal was to increase team capability by integrating more FEMA 
programs and interagency partners, and establishing a robust training 
and performance system. Today, FEMA's IMATs better reflect the core 
capabilities required by the National Response and Recovery Frameworks, 
and include personnel who are accountable for coordinating the Federal 
response regardless of type of incident.
Developed Hurricane-Specific Plans in FEMA Regions IV and VI With Our 
        Partners
    In 2014, in coordination with our regional stakeholders, FEMA 
Region IV--Atlanta, Georgia--completed a hurricane annex to its all-
hazards base plan. This plan includes a number of best practices, such 
as: The publication of a resource phasing plan; identification of 
staging areas; an introduction of modeling for each State; and linkages 
to preparedness activities like exercises. In 2013, FEMA Region VI--
Denton, Texas--published an all-hazards base plan that focused on a 
hurricane scenario. Since then, the Region conducts an annual update 
prior to hurricane season and then exercises the plan in a multi-State 
tabletop exercise. Region VI also has a dedicated planner for each of 
its hurricane-prone States to better respond to, and rapidly conduct, 
crisis action planning for hurricanes or any other threats.
State, Local, Tribal, and Interagency Integration
    Through the deliberate planning efforts described above, State, 
local, and Tribal partners have been core team members responsible for 
providing input and authorship of the catastrophic plans. This can be 
seen in how each State has an annex in the Region IV and VII (Kansas 
City, Missouri) plans. These State annexes are developed jointly 
between FEMA and the State and establish joint priorities between the 
State and Federal Government and identify all State and Federal assets 
available to provide response core capabilities as well as many other 
resources for local and other whole community partners.
    At both the National and regional levels, FEMA is working with 
Tribes to develop more robust plans and annexes that recognize the 
Tribal role in the whole community continuum of response and recovery. 
The annex will apply to all Federal departments and agencies working 
under the NRF in response to incidents requiring Federal coordination, 
including incidents involving Federally-recognized Tribes whether the 
Tribe requested and received a Presidential declaration on its own, or 
chose to be included under a State declaration.
    There is now a greater level of understanding of local threat 
characteristics and how the integrated emergency management response 
would occur. With a common methodology, response plans identify courses 
of action that drill down to the county/parish level.
Creation of FEMA Corps
    Created in 2012, FEMA Corps is a partnership between The 
Corporation for National and Community Service and FEMA that 
establishes a new track of up to 1,600 Service Corps Members within 
AmeriCorps National Civilian Community Corps (NCCC) dedicated to 
disaster preparedness, response, and recovery. This partnership builds 
on the historic collaboration between the two agencies and will enhance 
the Federal Government's disaster capabilities, increase the 
reliability and diversity of the disaster workforce, promote an ethic 
of service, expand education and economic opportunity for young people, 
and achieve significant cost savings for the American taxpayer. When 
the program is at full operational capability, and in an average 
disaster year, we expect to see a savings of approximately $60 million 
in a year.
    In the wake of Hurricane Sandy, FEMA Corps played an important role 
in assisting the agency with Preliminary Damage Assessments (PDAs), 
canvassing door-to-door, delivering supplies, and registering 
individuals and businesses for Individual Assistance and Public 
Assistance grants. Their involvement in response and recovery efforts 
across the country serve not only as a National resource today, but 
ensure that we are cultivating the next generation of emergency 
managers capable of supporting our Nation in the future.
                               conclusion
    The destruction caused by Hurricane Katrina reminds us all that we 
cannot become complacent. In fact, we can't afford to as there are many 
communities throughout the Gulf Coast States still recovering from the 
impacts of Katrina.
    There are many lessons learned from Hurricane Katrina, and those 
lessons continue to help reshape, reform, and restructure our agency. 
With the support of Congress and our whole community partners, FEMA is 
leaning forward both in policy and in practice.
    I am proud of how our agency has evolved, but I also recognize that 
we have much more work to do. Thank you again for the opportunity to 
appear before you today. I am happy to answer any questions that the 
subcommittee may have.

    Ms. McSally. Thank you, Administrator Fugate.
    The Chair now recognizes Mr. Koon for 5 minutes.

    STATEMENT OF BRYAN KOON, DIRECTOR, FLORIDA DIVISION OF 
  EMERGENCY MANAGEMENT, TESTIFYING ON BEHALF OF THE NATIONAL 
                EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Koon. Thank you, Chairman McSally, Ranking Member 
Thompson, and Members of the subcommittee for holding this 
important hearing today. As director of the Florida Division of 
Emergency Management and president of the National Emergency 
Management Association I am pleased to be here to discuss 
preparedness and response capabilities on a National level.
    As you have heard Administrator Fugate say, emergency 
management is a whole community endeavor involving all levels 
of government, the private sector, voluntary organizations, and 
individual citizens. While emergency preparedness and response 
capabilities are critical on the Federal level, it is important 
to emphasize that they are only part of the capabilities 
Nation-wide.
    Today, I will focus on leveraging the preparedness and 
response capabilities that we have in our States and 
localities, as well as addressing opportunities for continued 
improvement.
    One of the greatest tools this Nation has is the Emergency 
Management Assistance Compact. Ratified by Congress in 1996, 
EMAC allows States to share resources amongst themselves during 
disasters. It has been an overwhelming success and its use 
continues to grow.
    Most recently, 8 States sent 849 personnel to South 
Carolina to assist with their flood-fighting efforts. These 
deployments reduce the need for Federal resources and also 
benefits the home States.
    To quote Billy Estep, the Nassau County Emergency Managing 
Director who deployed to South Carolina as part of the 
Northeast Florida Incident Management team, ``No matter how 
hard we try or how sophisticated our process we cannot recreate 
this type of learning in an exercise environment. I feel these 
opportunities are vital to our preparedness efforts both 
locally and state-wide.''
    The capability that the States and locals build to respond 
to disasters both at home and through EMAC is often funded by 
the Emergency Management Performance Grant. EMPG is the only 
source of Federal funding directed to State and local 
governments for planning, training, exercises, and key 
professional expertise for all-hazards emergency preparedness.
    EMPG is also used for public awareness and outreach 
campaigns. Each year, Emergency Management agencies conduct 
thousands of these engagements, reaching over 135 million 
residents last year alone. Recipients of this grant continue 
demonstrating a strong commitment for every dollar of Federal 
funds invested; at least that much is matched by the recipient.
    In the absence of these funds, State and local governments 
would struggle to maintain the personnel or capabilities 
necessary to build and sustain an effective emergency 
management system.
    Opportunities for improvement continue to exist. One such 
area is the National Flood Insurance program. Much attention 
has been paid to the NFIP over the last several years, and 
rightly so. Although reforms have been implemented, Americans 
remain under-insured against the threat posed by flooding, our 
most prevalent hazard, and the trend line for the number of 
flood policies Nation-wide continues to decline.
    Too often, we watch our communities flood, only to hear 
from residents that they did not have the appropriate coverage. 
In the absence of insurance, they are reliant upon charitable 
organizations and Governmental aid that its not designed to 
make them whole. This delays the recovery of the community and 
threatens it very existence.
    We must redouble our efforts to design a system that helps 
people evaluate and plan for their individual risk, while 
simultaneously reducing our collective risk.
    Concurrent with improving our insurance coverage is the 
need for improved mitigation. To truly ensure that we are 
prepared, we must incentivize and facilitate more resilient 
communities. This point was made in the GAO's recent report 
that reviewed Federal efforts during Hurricane Sandy recovery. 
State and local officials reported that they were able to 
effectively leverage Federal programs to enhance disaster 
resilience, but also experienced challenges that could result 
in missed opportunities.
    Challenges in linking recovery and mitigation projects, 
navigating multiple funding streams, and differing regulations 
among the programs impact the desire and ability of local 
communities and homeowners to take advantage of the 
opportunities afforded by these programs.
    The report indicated that the current program works, but is 
constrained by its structure and implementation. Just as FEMA 
has designed its response program to be survivor-centric, it 
should also work to develop mitigation programs that are 
community-centric and administered in a way to make mitigation 
a clear and viable solution for the future.
    We have made tremendous strides in the Nation's ability to 
deal with disasters, and are on track for continued 
improvement.
    By investing in and leveraging the capabilities that exist 
with the individual at the State and local level, the private 
sector, and through our partnerships with organizations like 
the American Red Cross and the Salvation Army, we can most 
effectively determine the gaps that remain and should be filled 
by FEMA and its Federal partners.
    We appreciate the continued support of this subcommittee to 
the emergency management community, as we work together in 
forming new policies and procedures aimed at making these 
disasters less impactful on our communities and constituents.
    I thank you for the opportunity to testify today, and 
welcome any questions you may have.
    [The prepared statement of Mr. Koon follows:]
                    Prepared Statement of Bryan Koon
                            October 22, 2015
                              introduction
    Thank you Chairman McSally, Ranking Member Payne, and Members of 
the subcommittee for holding this important hearing today. As director 
of the Florida Division of Emergency Management and president of NEMA, 
which represents the State emergency management directors of the 50 
States, territories, and District of Columbia, I am pleased to be here 
to discuss preparedness and response capabilities on a National level.
    As we look back on the tenth anniversary of Hurricane Katrina and 
anticipate the upcoming third anniversary of Hurricane Sandy, this 
timely hearing gives us an opportunity to discuss the lessons we have 
learned and the changes we are working toward for the future.
    As you have heard Administrator Fugate say throughout his tenure, 
emergency management is a ``whole community'' endeavor. It involves the 
public sector, the private sector, voluntary organizations, and 
individual citizens--all of whom are crucial to preparing for disasters 
and responding to and recovering from them. While emergency 
preparedness and response capabilities are critical on the Federal 
level, it is important to emphasize that they are only a part of the 
capabilities Nation-wide. In my testimony this morning, I will focus on 
leveraging the preparedness and response capabilities that we have in 
our States and localities. Specifically, I will discuss the importance 
of the Emergency Management Assistance Compact and the value that the 
Emergency Management Performance Grant plays in assisting the whole 
community.
       national emergency preparedness and response capabilities
    As Hurricane Joaquin moved towards the East Coast, South Carolina 
closely monitored the storm and its projected tracks. While the 
Hurricane did not make landfall in South Carolina, moisture from it 
did. The State received very heavy rainfall for several days. In fact, 
the official State-wide 24-hour rainfall record was exceeded in several 
locations. This storm led to historic flooding which caused the tragic 
deaths of 19 people and State-wide property damage.
    President Barack Obama signed a State-wide emergency declaration on 
October 5, 2015, authorizing Federal aid in anticipation of more rain. 
However, resources from other States were already at work utilizing the 
Emergency Management Assistance Compact (EMAC).
    EMAC has played an important role in facilitating collaboration 
among States and enabling them to share resources and capabilities. 
When States and the U.S. territories joined together and Congress 
ratified EMAC (Pub. L. 104-321) in 1996, it created a legal and 
procedural mechanism whereby emergency response resources such as Urban 
Search and Rescue Teams could quickly move throughout the country to 
meet disaster needs. All 50 States, the District of Columbia, the U.S. 
Virgin Islands, Puerto Rico, and Guam are members of EMAC and have 
committed their emergency resources in helping one another during times 
of disaster or emergency.
    Since its ratification by Congress, EMAC has grown significantly in 
size, volume, and the types of resources States are able to deploy. For 
example, over 67,000 personnel from a variety of disciplines deployed 
through EMAC to the Gulf Coast in response to Hurricanes Katrina and 
Rita, and 12,279 personnel deployed to Texas and Louisiana during 
Hurricanes Gustav and Ike. More recent uses of EMAC have included the 
response for the manhunt in Pennsylvania, severe weather in 
Mississippi, wildfires in Washington, tropical storms in Hawaii, and 
the historic snowstorms in Massachusetts.
    For the historic flooding in South Carolina, 849 people have been 
deployed through EMAC to assist with response and recovery efforts. 
Resources and personnel have been received from 8 States including 
Alabama, Florida, Georgia, Louisiana, Mississippi, North Carolina, 
North Dakota, and Tennessee. In fact, additional States made offers of 
assistance.
    Through EMAC, capabilities and resources such as Incident 
Management Teams, Damage Assessment Teams, a National Flood Insurance 
Program Administrator, a Volunteer Agency Liaison, Hazard Mitigation 
Officers, a Recovery Chief, Public Assistance Officers, and Individual 
Assistance Officers were deployed to South Carolina. EMAC has made it 
easier for States to assist each other effectively--with the added 
benefit of lessening the need for Federal resources in the process.
    Utilizing EMAC not only benefits the receiving State but also those 
who are deployed. The County Emergency Management Director, Billy 
Estep, from Nassau County, Florida said the following upon returning 
from a mission in South Carolina, ``I want to stress the most important 
lesson learned from this deployment: No matter how hard we try or how 
sophisticated our process, we cannot recreate this type of learning in 
an exercise environment. I implore Florida Division of Emergency 
Management (FDEM) leadership to continue and expand their obvious 
support for these opportunities, and keep utilization of these teams 
acutely focused on the all-hazards concepts which made us nimble enough 
to adapt to our wide-breadth of assigned missions. I feel these 
opportunities are vital to our preparedness efforts both locally and 
State-wide.''
Building Capacity with EMPG
    In addition to leveraging EMAC for resources during disaster 
response, States and locals also build capacity and enhance their 
capability to respond to disasters when they utilized the Emergency 
Management Performance Grants (EMPG). EMPG is the only source of 
Federal funding directed to State and local governments for planning, 
training, exercises, and key professional expertise for all-hazards 
emergency preparedness. The money is often used to conduct risk and 
hazard assessments and support emergency operations centers which are 
the coordination hubs for all disaster response. The program also 
provides public education and outreach, enhanced interoperable 
communications capabilities, and the ability to manage State-wide 
alerts and warnings.
    For example, in fiscal year 2014, EMPG significantly contributed to 
public awareness and outreach campaign efforts. Local, Tribal, and 
State emergency management officials conducted 5,886 local and Tribal 
and 1,295 State-wide citizen and community preparedness outreach 
campaigns. According to State responses, these outreach programs 
benefited 135,568,054 residents while locally-specific programs 
impacted 24,608,092 citizens.
    Recipients of this grant continue demonstrating a strong 
commitment; for every dollar of Federal funds invested, at least that 
much is matched by both grantees and sub-grantees. In the absence of 
these funds, State and local governments would struggle to maintain the 
personnel or capabilities necessary to build and sustain an effective 
emergency management system. EMPG stands as the beacon of Congressional 
commitment to ensuring communities and States are more ready to 
prepare, mitigate, respond, and recover from any number of emergencies 
and disasters. EMPG does far more, however, than provide funds for 
planning, training, exercises, and communications. EMPG must continue 
to be strengthened and maintained through shared investments.
            continuing to improve our policies and programs
    After Hurricane Katrina, Congress passed the Post-Katrina Emergency 
Management Reform Act of 2006. This legislation expanded the FEMA 
mission, creating stronger regions and adding the responsibility of 
homeland security preparedness.
    After Hurricane Sandy, in response to the needs of the State and 
local governments, Congress once again immediately took action to make 
serious improvements to the Stafford Act through the Sandy Recovery 
Improvement Act. This legislation not only helped facilitate a smooth 
recovery in the Sandy-impacted area, but also forever changes FEMA 
programs and policies. Some of the provisions of SRIA, such as the 
debris removal pilot program, have been supported by NEMA for many 
years.
    Just as we reviewed policies and programs after Hurricanes Katrina 
and Sandy we must continue to review the programs and policies that we 
use today. The measure of success related to disaster response and 
recovery lies in the overarching programs which help guide our 
policies. In order to gauge our success we must continue to review and 
reform programs such as the National Flood Insurance Program.
    Much attention has been paid to the NFIP over the last several 
years, and rightly so. Reforms have been implemented that are designed 
to stabilize the program, but the desired outcome is still many years 
away. In the mean time, however, we as a Nation are still grossly 
underinsured against the threat posed by flooding, our most prevalent 
hazard. Time after time we watch as our communities flood, only to hear 
from residents that they did not have the appropriate coverage. In the 
absence of insurance, they are reliant upon their on fiscal ability, 
the generosity of the charitable organizations, and Federal and State 
aid that is not designed to make them whole. Such situations delay the 
recovery of a community and threaten its very existence. We as a Nation 
must redouble our efforts to design a system that helps people evaluate 
their individual risk and plan accordingly while simultaneously 
reducing our collective risk.
    The lack of appropriate coverage is not limited to flood; too few 
Americans truly understand their vulnerability to earthquakes and 
landslides. The Cascadia Subduction Zone (CSZ) ``megathrust'' fault is 
a long dipping fault that stretches from Northern Vancouver Island to 
Cape Mendocino California. This area creates the largest earthquakes in 
the world, and has produced magnitude 9.0 or greater earthquakes in the 
past, and undoubtedly will in the future. New research using land 
deposits found at the bottom of the ocean points to a 1 in 3 chance of 
a major earthquake in the Pacific Northwest in the next 50 years. 
Recovering from a large-scale earthquake in this area would be 
complicated tremendously by the lack of appropriate insurance coverage, 
and would result in tremendous costs to government at all levels.
                    disasters: growing in intensity
    The historic flooding in South Carolina is just one example of the 
growing intensity in disasters. The year 2015 has been among the most 
devastating on record for wildfires in the United States, with more 
than 9 million acres burned so far this year, according to the National 
Interagency Fire Center. Over the course of the year, fires have 
stretched across the western half of the country, and are currently 
raging in California, Idaho, Montana, North Dakota, Oregon, Wyoming, 
and Texas.
    The number of acres destroyed by fires have been rising 
significantly, which experts attribute to hotter, drier conditions that 
make the blazes harder to contain. With such a high volume of fires, 
floods, and other disasters the need for mitigation efforts is growing 
increasingly more important. Mitigation activities can take many forms 
and the use of mitigation programs often differ by region. What does 
not differ, however, is the return on investment of these programs. 
FEMA's mitigation programs have been effective in reducing the property 
damage, personal and commercial hardship, as well as long-lasting 
monetary burdens after a disaster.
    Mitigation is the first and the last step in a jurisdiction's 
overall readiness. And while many communities have the desire to harden 
their infrastructure, they lack the resources and technical ability 
necessary to do so. If we are to truly ensure that we are prepared as a 
Nation, we must increase our efforts to prepare our built environment 
for future disasters by incentivizing and facilitating mitigation. This 
point was made in the recent Government Accountability Office (GAO) 
report, Hurricane Sandy: An Investment Strategy Could Help the Federal 
Government Enhance National Resilience for Future Disasters that 
reviewed Federal efforts to strengthen disaster resilience during 
Hurricane Sandy recovery. The report addressed how Federal recovery 
funds were used to enhance resilience, the extent to which States and 
localities were able to maximize Federal funding to enhance resilience; 
and actions that could enhance resilience for future disasters.
    State and local officials from the States affected by Hurricane 
Sandy GAO contacted, reported that they were able to effectively 
leverage Federal programs to enhance disaster resilience, but also 
experienced challenges that could result in missed opportunities. The 
challenges fell into three categories:
  <bullet> Implementation challenges with PA and HMGP--for example, 
        officials reported that FEMA officials did not always help them 
        pursue opportunities to incorporate mitigation into permanent 
        construction recovery projects;
  <bullet> Limitations on comprehensive risk reduction approaches in a 
        post-disaster environment--for example, officials reported 
        difficulties with navigating multiple funding streams and 
        various regulations of the different Federal programs funded 
        after Hurricane Sandy; and
  <bullet> Local ability and willingness to participate--for example, 
        officials reported that some home and business owners were 
        unwilling or unable to bear the required personal cost share 
        for a home-elevation or other mitigation project.
    This report indicates that the current program works, but is 
constrained by its structure and implementation. Just as FEMA has 
designed its response program to be ``survivor-centric'', it should 
also work to develop mitigation programs that are ``community-centric'' 
and administered in a way to make mitigation a clear and viable 
solution for the future.
                        understanding what works
    While we still have work to do in reviewing and implementing 
policies and programs, FEMA has undertaken efforts to improve many 
processes and programs. The agency has made many advances in refining 
their back-office operations such as improving their hiring, 
management, information technology, and procurement systems. FEMA has 
also encouraged the use of current codes and standards in existence for 
mitigation rather than using cost-benefit analysis formulas.
    The Public Assistance Reengineering is an excellent example of FEMA 
working to improve and maximize existing programs. While it is still 
too early to determine the effectiveness of the change, we are pleased 
with the effort and urge that similar reforms be considered by other 
programs that impact our ability to mitigate, prepare, and recover.
    Throughout their strategic plan, FEMA has made it a priority to 
build capability for catastrophic disasters. They have moved the focus 
away from being singularly on Stafford Act programs and instead looked 
at the Nation's resources to recover. Preparing for catastrophic 
disasters has led FEMA to ensure that all employees are now deployable 
emergency managers. The agency has started to train each employee, 
regardless of the department or position, so that they can be deployed 
as needed.
    FEMA has also made it a priority to become an expeditionary 
organization. The agency has increased and improved engagement across 
the preparedness, response, recovery, and mitigation missions while 
also working towards reducing disaster risk Nationally. The agency has 
focused on providing mitigation programs with a focus on future 
conditions and not historical averages. The agency has worked to ensure 
that the whole community uses the best available data and analytic 
tools to make better risk-informed decisions before, during, and after 
disasters.
                               conclusion
    If we hope to see effective preparedness and response to disasters, 
we must utilize the capabilities that we have as a Nation and allocate 
resources to most effectively meet the need. The ability to share 
resources will only strengthen the Nation's capability as a whole. One 
of the most valuable partnerships in the whole community is between 
State emergency management agencies. It's important to acknowledge that 
increasing the Nation's preparedness and response capabilities doesn't 
mean increasing FEMA's capabilities. Through programs such as EMAC, 
which has been invaluable in deploying assets throughout the country 
and enabling States to support each other more effectively, we are able 
to reduce the need for Federal resources. When States work with each 
other and build on the capabilities in their own States it results in 
strong charitable partners like the American Red Cross, the Salvation 
Army, or any of the scores of other organizations that are there when 
Americans need them.
    Going forward, we must encourage greater investments as States work 
with one another to reduce the need for Federal assistance, reduces 
Federal administrative costs, reduces property damages, and most 
importantly save lives. We should also continue to support FEMA's grant 
programs, such as the Emergency Management Performance Grant, funded at 
a mere $350 million to be allocated between all States, the District of 
Columbia, U.S. territories and thousands of local jurisdictions, 
facilitates strong State and local emergency management agencies that 
respond to the vast majority of incidents every day in our country. We 
appreciate the continued support of this subcommittee to the emergency 
management community as we work together in forming new policies and 
procedures aimed at making these disasters less impactful on our 
communities and constituents.
    I thank you for the opportunity to testify today and welcome any 
questions you may have.

    Ms. McSally. Thank you, Mr. Koon.
    The Chair now recognizes Mr. Currie for 5 minutes.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, EMERGENCY MANAGEMENT, 
 NATIONAL PREPAREDNESS AND CRITICAL INFRASTRUCTURE PROTECTION, 
      HOMELAND SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman McSally, Ranking Member 
Thompson, other Members of the committee. We really appreciate 
the opportunity to be able to be here and testify.
    Before I get into some of our specific work that we have 
done at GAO in this area, I would like to make a couple broader 
points.
    FEMA is a much different organization than it was in 2005, 
and has made a lot of progress. I think the proactive 
preplanning and response to Sandy were evidence of that, and 
that the Federal Government at large was much better prepared 
for another catastrophic storm.
    However, FEMA and other agencies operate in a different 
disaster and fiscal environment today. Extreme weather events 
are now the norm, and Federal disaster spending has exploded. 
It is not just traditional disaster relief funds from FEMA. 
Now, many other Federal agencies are contributing more to 
disaster relief either directly or indirectly.
    Over the last decade, we at GAO have reported on progress 
and challenges, as you mentioned, in numerous areas, including 
efforts to implement over 300 provisions in the Post-Katrina 
Act.
    Today, I would like to focus on some of our work in three 
of those areas. The first is National preparedness, the second 
is response and recovery, and the third is what I would 
categorize as FEMA management issues.
    So let me talk a little bit about preparedness or, just 
more simply, how capable we are to respond to a disaster. Some 
of the biggest changes to FEMA in the Post-Katrina Act were in 
this area. For example, there has been much progress in 
establishing the coordinating structures, or the emergency 
support functions, across the Federal Government.
    Also, FEMA and other agencies have conducted numerous 
exercises to test their readiness and identify capability gaps. 
Challenges still exist in this area, though. Specifically, FEMA 
doesn't necessarily control other Federal departments' 
preparedness efforts and resources.
    For example, FEMA manages National-level exercises, but we 
found that other agencies don't always report back on actions 
they took to close the gaps that are identified during those 
exercises. So this impacts FEMA's ability to assess overall 
preparedness.
    The second area I would like to talk about is response and 
recovery. Again, there has been much progress since the 
problems we remember after Katrina. But more work is still 
needed.
    For example, we have recently evaluated FEMA disaster 
payments to individuals, which was discussed in the opening 
statements, after Sandy and compared them to Katrina. Due to 
better controls that FEMA implemented after Katrina, we found 
about 2.7 percent of payments at risk of being improper or 
potentially fraudulent--it doesn't mean that those were all 
fraudulent--compared to upwards of 22 percent after Katrina.
    So this is unbelievably great progress, given the challenge 
that Mr. Fugate mentioned of getting money out quickly but 
making sure it is to the right people.
    However, there are still improvements and some challenges 
that exist, such as ability to validate Social Security numbers 
with the Social Security Administration, and we made some 
recommendations to address these issues.
    I would also like to emphasize our work on mitigation and 
resilience-building during recoveries. Given the increase in 
Federal costs and extreme weather, mitigation is one of the few 
solutions to buy down risk and decrease future cost. Mr. Koon 
talked about this in his opening. We have reported recently 
that resilience-building efforts were a much higher priority in 
Sandy recovery, and States were able to use a number of the 
Federal programs to mitigate against future disasters. However, 
more work is needed to break down the barriers that still exist 
in mitigation.
    For example, States and locals had difficulty navigating 
multiple fragmented Federal programs, all with rules, 
regulations, and time frames. These weren't all FEMA programs; 
these are programs across the menu of Federal agencies.
    We also found that the Nation lacks a comprehensive 
strategic approach to prioritizing our investments in 
resilience. We made recommendations to begin addressing these 
issues, but determining how to better invest our resilience 
dollars won't be easy.
    The last area I wanted to discuss is FEMA management. For 
example, FEMA has taken a number of steps to better manage and 
control the rising administrative costs. Now, these are the 
costs of actually providing and managing disaster assistance.
    Specifically, in response to our recommendation they 
developed specific goals, and a plan to better manage and try 
to reduce these costs.
    Also, over the last decade we and others have found 
continued challenges in FEMA's ability to complete and 
integrate important strategic workforce planning efforts. We 
just reported, back in July, that the agency had not completed 
its plan to identify workforce gaps and lacked data on the cost 
and performance of certain workforce components. That has been 
a pretty consistent message across some of our reports over the 
last 5 to 7 years.
    So this completes my prepared remarks. I look forward to 
the discussion, and any questions.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                            October 22, 2015
emergency management.--fema has made progress since hurricanes katrina 
                    and sandy, but challenges remain
                               gao-16-90t
    Chairman McSally, Ranking Member Payne, and Members of the 
subcommittee: I appreciate the opportunity to testify today about 
efforts by the Federal Emergency Management Agency (FEMA), a component 
of the Department of Homeland Security (DHS), to more efficiently lead 
the Nation's efforts to prepare for, respond to, and recover from 
disasters and manage aspects of its operations to support these 
efforts. We have reported on a broad range of issues and currently have 
on-going work for this committee related to FEMA's disaster programs 
and operations. The anniversaries of Hurricanes Katrina and Sandy 
provide a valuable opportunity to assess FEMA's progress and challenges 
in National disaster preparedness and response and recovery efforts, as 
well as its management.
    Hurricane Katrina in 2005 was the largest, most destructive natural 
disaster in our Nation's history. FEMA estimated that Hurricane Katrina 
caused an estimated $108 billion in damages. Following the Federal 
response to Hurricane Katrina in 2005, Congress passed the Post-Katrina 
Emergency Management Reform Act of 2006 (Post-Katrina Act).\1\ The act 
enhanced FEMA's responsibilities and its autonomy within DHS and 
contained over 300 provisions that call for DHS or FEMA action to 
implement requirements or exercise authorities--or to be prepared to do 
so under the appropriate condition. After the Post-Katrina Act was 
enacted, we conducted reviews and issued multiple reports that 
discussed a wide variety of these emergency management issues 
reflecting the Federal Government and FEMA's efforts to implement 
provisions of the Post-Katrina and improve National disaster 
preparedness, and response and recovery.\2\ A selection of our related 
reports is attached to my statement. Hurricane Sandy struck the United 
States in October 2012, causing an estimated $65 billion in damages, 
once again testing FEMA and the Federal Government's ability to respond 
to catastrophic disasters.
---------------------------------------------------------------------------
    \1\ 6 U.S.C.  721, 723; 42 U.S.C.  5144. The Post-Katrina Act 
was enacted as Title VI of the Department of Homeland Security 
Appropriations Act, 2007, Pub. L. No. 109-295, 120 Stat. 1355 (2006).
    \2\ Two reports focused explicitly on the Post-Katrina Act; see 
GAO, Actions Taken to Implement the Post-Katrina Emergency Management 
Reform Act of 2006, GAO-09-59R, (Washington, DC: Nov. 21, 2008); and 
GAO, National Preparedness: Actions Taken by FEMA to Implement Select 
Provisions of the Post-Katrina Emergency Management Reform Act of 2006, 
GAO-14-99R: (Washington, DC: Nov. 26, 2013).
---------------------------------------------------------------------------
    The initial response to a disaster is the job of local government's 
emergency services with help from nearby municipalities, the State and 
volunteer agencies. In a catastrophic disaster, if the Governor 
requests, Federal resources can be mobilized through FEMA for search 
and rescue, electrical power, food, water, shelter, and other basic 
human needs. The long-term recovery phase of disaster places the most 
severe financial strain on local or State government and damage to 
public facilities and infrastructure, often not insured, can overwhelm 
even a large city. We have recognized the rise in the number--and the 
increase in severity--of disasters as a key source of Federal fiscal 
exposure.\3\ Similarly, managing fiscal exposure due to climate change 
has been on our high-risk list since 2013, in part, because of concerns 
about the increasing costs of disaster response and recovery 
efforts.\4\
---------------------------------------------------------------------------
    \3\ The term fiscal exposure refers to the responsibilities, 
programs, and activities that may either legally commit the Federal 
Government to future spending or create the expectation for future 
spending. See GAO Fiscal Exposures: Improving Cost Recognition in the 
Federal Budget, GAO-14-28 (Washington, DC: Oct. 29, 2013). Also, see 
GAO's Federal Fiscal Outlook webpage: http://www.gao.gov/
fiscal_outlook/federal_fiscal_outlook/overview#t=3.
    \4\ GAO, High-Risk Series: An Update, GAO-15-290 (Washington, DC: 
Feb. 11, 2015); also http://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did- _study.
---------------------------------------------------------------------------
    My testimony today discusses progress FEMA has made and challenges 
that FEMA faces in three areas: (1) National preparedness, (2) disaster 
response and recovery, and (3) selected FEMA management areas.
    This statement is based on our prior work and focuses on reports 
issued from September 2012 through September 2015. To conduct our prior 
work, we reviewed relevant Presidential directives, laws, regulations, 
policies, and strategic plans; surveyed States; and interviewed 
Federal, State, and industry officials, among others. More information 
on our scope and methodology can be found in each of the reports cited 
throughout this statement.
    The work upon which this testimony is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                         national preparedness
Interagency Emergency Support Capability Assessments
    In December 2014, we reported on the progress the departments that 
coordinate Federal emergency support functions (ESF)\5\ have made in 
conducting a range of coordination, planning, and capability assessment 
activities.\6\ For example, all 10 ESF coordinators identified at least 
one nonemergency activity through which they coordinate with their 
ESFs' primary and support agencies.\7\ Further, all 10 ESF coordinators 
identified at least one planning document--in addition to the 
information contained in the NRF's ESF annexes--that they had developed 
for their ESFs to further define the roles, responsibilities, policies, 
and procedures for their ESFs' coordination and execution.
---------------------------------------------------------------------------
    \5\ Emergency Support Functions (ESFs) are Federal interagency 
coordinating structures that group capabilities into functional areas 
most frequently needed in a National response. The ESFs are described 
in annexes to the National Response Framework (NRF), a guide to how the 
Nation responds to disasters and emergencies of all types and describes 
the principles, roles and responsibilities, and coordinating structures 
for delivering the core capabilities required to save lives, protect 
property and the environment, stabilize communities, and meet basic 
human needs following an incident. The NRF includes various annexes, 
including those on ESFs.
    \6\ DHS issued the National Preparedness Goal in September 2011 
which defines what it means to be prepared for all types of disasters 
and emergencies. The goal envisions a secure and resilient Nation with 
the capabilities required to prevent, protect against, mitigate, 
respond to, and recover from the threats and hazards that pose the 
greatest risk.
    \7\ The following 10 ESFs included in our review: Public Works and 
Engineering; Energy; Public Health and Medical Services; 
Communications; Information and Planning; Mass Care, Emergency 
Assistance, Temporary Housing, and Human Services; Logistics; Search 
and Rescue; External Affairs; and Public Safety and Security.
---------------------------------------------------------------------------
    We found, however, that the ESF Leadership Group and FEMA,\8\ as 
the group's chair, had not worked with other Federal departments to 
issue supplemental guidance detailing expectations for the minimum 
standards for activities and product deliverables necessary to 
demonstrate ESF preparedness.\9\ In the absence of such guidance, we 
found that ESF coordinators are inconsistently carrying out their 
emergency response preparedness activities. We also found that, while 
Federal departments have identified emergency response capability gaps 
through National-level exercises, real-world incidents, such as 
Hurricane Sandy and other assessments, the status of Federal 
interagency implementation of these actions is not comprehensively 
collected by or reported to DHS or FEMA and, as a result, DHS's and 
FEMA's ability to assess and report on the Nation's overall 
preparedness is hampered. Further, we found that FEMA's plan to lead 
interagency actions to identify and address capability gaps in the 
Nation's preparedness to respond to improvised nuclear device (IND) 
attacks did not contain detailed program management information--such 
as specific time frames, milestones, and estimated resources required 
to close any given capability gap--which is needed to better enable on-
going management oversight of gap closure efforts.
---------------------------------------------------------------------------
    \8\ FEMA chairs the ESF Leadership Group, which is composed of the 
Federal departments and agencies that are designated as ESF 
coordinators. The ESF Leadership Group exists to coordinate 
responsibilities, resolve interagency operational and preparedness 
issues, and provide planning guidance and oversight for developing 
interagency response plans and activities.
    \9\ GAO, Emergency Preparedness: Opportunities Exist to Strengthen 
Interagency Assessments and Accountability for Closing Capability Gaps, 
GAO-15-20 (Washington, DC: Dec. 4, 2014).
---------------------------------------------------------------------------
    In our December 2014 report, we recommended that FEMA--in 
collaboration with other Federal agencies--(1) issue supplemental 
guidance to ESF coordinators detailing minimum standards for activities 
and product deliverables necessary to demonstrate ESF preparedness, 
develop and (2) issue detailed program management information to better 
enable management oversight of the DHS IND Strategy's recommended 
actions, and (3) regularly report on the status of corrective actions 
identified through prior National-level exercises and real-world 
disasters. DHS concurred with our recommendations and FEMA has taken 
actions in response. For example, in June 2015, FEMA issued guidance 
for ESF coordinators that details minimum standards for activities and 
product deliverables necessary to demonstrate ESF preparedness. The ESF 
Leadership Group established a set of preparedness performance metrics 
to guide ESF coordination, planning, and capabilities assessment 
efforts. The ESF Leadership Group-generated metrics set standardized 
performance targets and preparedness actions across the ESFs. 
Collectively, the metrics and reporting of these metrics should provide 
an opportunity to better measure preparedness efforts by assessing if 
ESF coordination and planning is sufficient, and whether required ESF 
capabilities are available for disaster response. In addition, FEMA 
developed a detailed program plan to provide a quantitative analysis of 
current work and addressing existing capability gaps linked to a 
project management tracking system to identify specific dates for past, 
present, and upcoming milestones for its IND Program. We believe that 
FEMA's actions in these areas have fully met the intent of these two 
recommendations. FEMA officials also collected information on the 
status of National Level Exercise Corrective Actions from 2007-2014, an 
important step to respond to our other recommendation and we are 
continuing to monitor FEMA's efforts in this area, however it has not 
provided a time frame for its completion.
Disaster Logistics
    We recently reported in September 2015 on FEMA's progress in 
working with its Federal partners to implement the National Response 
Framework (NRF) Emergency Support Function No. 7 (ESF 7) Logistics 
Annex.\10\ We found that FEMA's efforts reflect leading practices for 
interagency collaboration and enhance ESF 7 preparedness. For example, 
FEMA's Logistics Management Directorate (LMD) has facilitated meetings 
and established interagency agreements with ESF 7 partners such as the 
Department of Defense and the General Services Administration, and 
identified needed quantities of disaster response commodities, such as 
food, water, and blankets. Additionally, FEMA tracks the percentage of 
disaster response commodities delivered by agreed-upon dates, and 
available through FEMA and its ESF 7 partners. Regarding FEMA's support 
of its State and local stakeholders, we found that FEMA could 
strengthen the implementation of its Logistics Capability Assessment 
Tool (LCAT). For example, FEMA--through LMD and its regional offices--
has made progress in offering training and exercises for State and 
local stakeholders, developing the LCAT, and establishing an 
implementation program to help State and local stakeholders use the 
tool to determine their readiness to respond to, disasters. However, we 
found that, while feedback from States that have used the LCAT has 
generally been positive, implementation of the program by FEMA's 
regional offices has been inconsistent; 3 of 10 regional offices no 
longer promote or support LCAT assessments. Further, LMD did not 
identify staff resources needed to implement the program, and did not 
develop program goals, milestones, or measures to assess the 
effectiveness of implementation efforts.
---------------------------------------------------------------------------
    \10\ GAO, Emergency Management: FEMA Collaborates Effectively with 
Logistics Partners but Could Strengthen Implementation of Its 
Capabilities Assessment Tool, GAO-15-781, (Washington, DC: Sep 10, 
2015).
---------------------------------------------------------------------------
    In our September 2015 report, we recommended that FEMA identify the 
LMD and regional resources needed to implement the LCAT, and establish 
and use goals, milestones, and performance measures to report on the 
LCAT program implementation. DHS concurred with the recommendations and 
is taking actions to address them. For example, FEMA officials said 
they intend to work closely with regional staff to identify resources 
and develop a plan to monitor LCAT performance.
    We also reported on the status of FEMA's development of the 
Logistics Supply Chain Management System (LSCMS) as part of a broader 
look at 22 acquisition programs at DHS, in April 2015.\11\ We reported 
that, according to FEMA officials, LSCMS can identify when a shipment 
leaves a warehouse and the location of a shipment after it reaches a 
FEMA staging area near a disaster location. At the time of our review, 
LSCMS could not track partner organizations' shipments en route to a 
FEMA staging area, and lacked automated interfaces with its partners' 
information systems. We also reported that DHS leadership had not yet 
approved a baseline establishing the program's cost, schedule, and 
performance parameters. According to FEMA officials, FEMA's partners 
and vendors can now receive orders directly from LSCMS and manually 
input their shipment data directly into a vendor portal, providing FEMA 
with the ability to track orders and shipments from time and date of 
shipment to the estimated time of arrival, but not the in-transit real-
time location of shipments. They also said that the program baseline 
was still under consideration by DHS leadership at the time of our 
review. In addition, DHS's Office of the Inspector General (OIG) issued 
a report on LSCMS in September 2014.\12\ The DHS OIG made 11 
recommendations designed to address operational deficiencies that FEMA 
concurred with, such as identifying resources to ensure effective 
program management and developing a training program for staff. As of 
July 2015, FEMA officials report that 5 of the OIG's recommendations 
have been implemented, and the agency is taking steps to address the 
remaining 6 recommendations.\13\
---------------------------------------------------------------------------
    \11\ GAO, Homeland Security Acquisitions: Major Program Assessments 
Reveal Actions Needed to Improve Accountability, GAO-15-171SP 
(Washington, DC: Apr. 22, 2015). Since this report was focused 
generally on DHS's major acquisition programs, we made no 
recommendations specific to LSCMS.
    \12\ DHS OIG, FEMA's Logistics Supply Chain Management System May 
Not Be Effective During a Catastrophic Disaster, OIG-14-151, 
Washington, DC: Sept. 22, 2014).
    \13\ GAO, Emergency Management: FEMA Collaborates Effectively with 
Logistics Partners but Could Strengthen Implementation of Its 
Capabilities Assessment Tool, GAO-15-781, (Washington, DC: Sept. 10, 
2015).
---------------------------------------------------------------------------
    Because of our own update on the status of LSCMS development, as 
well as DHS OIG's review of LSCMS, we did not include a review of LSCMS 
operations in the scope of our logistics report.
    In addition to these completed reviews of preparedness efforts, we 
currently have work underway for this committee assessing how FEMA's 
regional coordination efforts support National preparedness. 
Specifically, we plan to assess and report on FEMA's management of 
preparedness grants, implementation of the National Incident Management 
System, and interactions with regional advisory councils later this 
year.
                     disaster response and recovery
Disaster Declarations
    In September 2012, we reported on FEMA's processes for determining 
whether to recommend major disaster declarations.\14\ We found that 
FEMA primarily relied on a single criterion, the per capita damage 
indicator, to determine whether to recommend to the President that a 
jurisdiction receive Public Assistance (PA) funding.\15\ However, 
because FEMA's current per capita indicator at the time of our report, 
set at $1 in 1986, did not reflect the rise in: (1) Per capita personal 
income since it was created in 1986 or (2) inflation from 1986 to 1999, 
the indicator was artificially low.\16\ Further, the per capita 
indicator did not accurately reflect a jurisdiction's capability to 
respond to or recover from a disaster without Federal assistance. We 
identified other measures of fiscal capacity, such as total taxable 
resources, that could be more useful in determining a jurisdiction's 
ability to pay for damages to public structures. We also reported that 
FEMA can recommend increasing the usual proportion (75 percent) of 
costs the Federal Government pays (Federal share) for PA (to 90 
percent) when costs get to a certain level. However, FEMA had no 
specific criteria for assessing requests to raise the Federal share for 
emergency work to 100 percent, but relied on its professional judgment.
---------------------------------------------------------------------------
    \14\ GAO, Federal Disaster Assistance: Improved Criteria Needed to 
Assess a Jurisdiction's Capability to Respond and Recover on Its Own, 
GAO-12-838, (Washington, DC: Sept. 12, 2012).
    \15\ The Public Assistance program provides for debris removal; 
emergency protective measures; and the repair, replacement, or 
restoration of disaster-damaged, publicly-owned facilities and the 
facilities of certain private nonprofit organizations that provide 
services otherwise performed by a Government agency.
    \16\ The indicator would have been $3.57 in 2011 had it been 
adjusted for increases in per capita income and $2.07 in 2012 had it 
been adjusted for inflation from 1986 to 1999, rather than $1.35.
---------------------------------------------------------------------------
    In our September 2012 report, we recommended, among other things, 
that FEMA develop a methodology to more accurately assess a 
jurisdiction's capability to respond to and recover from a disaster 
without Federal assistance, develop criteria for 100 percent cost 
adjustments, and implement goals for and monitor administrative costs. 
FEMA concurred with the first two recommendations, but partially 
concurred with the third, saying it would conduct a review before 
taking additional action. Since that time, FEMA has submitted a report 
to Congress outlining various options that the agency could take to 
assess a jurisdiction's capability to respond to and recover from a 
disaster. We met with FEMA in April 2015 to discuss its report to 
Congress. FEMA officials told us that the agency would need to 
undertake the rulemaking process to implement a new methodology that 
provides a more comprehensive assessment of a jurisdiction's capability 
to respond and recover from a disaster without Federal assistance. They 
said that they identified three potential options, which taken 
individually or in some combination would implement our recommendation 
by: (1) Adjusting the PA per capita indicator to better reflect current 
National and State-specific economic conditions; (2) developing an 
improved methodology for considering factors in addition to the PA per 
capita indicator; or (3) implementing a State-specific deductible for 
States to qualify for PA.\17\ Although FEMA initially concurred with 
our recommendation to develop criteria for 100 percent cost 
adjustments, it has concluded that it will not establish specific 
criteria or factors to use when evaluating requests for cost share 
adjustments. FEMA conducted a historical review of the circumstances 
that previously led to these cost share adjustments, and determined 
that each circumstance was unique in nature and could not be used to 
develop criteria or factors for future decision making. Based on FEMA's 
review and its clarification of the intent to use cost share 
adjustments during only rare catastrophic events, we agreed that their 
decision could lead to better stewardship of Federal dollars.
---------------------------------------------------------------------------
    \17\ Department of Homeland Security, Federal Emergency Management 
Agency, FEMA's Response to GAO-12-838 Fiscal Year 2015 Report to GAO, 
(Washington, DC: Mar. 31, 2015.)
---------------------------------------------------------------------------
Disaster Assistance Payments To Individuals
    In December 2014, we reported on FEMA's progress in improving its 
ability to detect improper and potentially fraudulent payments. 
Specifically, while safeguards were generally not effective after 
Hurricanes Katrina and Rita, the controls FEMA implemented since then, 
designed to improve its capacity to verify applicants' eligibility for 
assistance, have improved the agency's ability to prevent improper or 
potentially fraudulent Individuals and Households Program (IHP) 
payments. We reported that as of August 2014, FEMA stated that it had 
provided over $1.4 billion in Hurricane Sandy assistance through its 
IHP--which provides financial awards for home repairs, rental 
assistance, and other needs--to almost 183,000 survivors. We identified 
$39 million or 2.7 percent of that total that was at risk of being 
improper or fraudulent compared to 10 to 22 percent of similar 
assistance provided for Hurricanes Katrina and Rita.
    However in December 2014, we identified continued challenges in the 
agency's response to Hurricane Sandy, including weaknesses in the 
agency's validation of Social Security numbers, among other things.\18\ 
Although FEMA hired contractors to inspect damaged homes to verify the 
identity and residency of applicants and that reported damage was a 
result of Hurricane Sandy, we found 2,610 recipients with potentially 
invalid identifying information who received $21 million of the $39 
million we calculated as potentially improper or fraudulent. Our 
analysis included data from the Social Security Administration (SSA) 
that FEMA does not use, such as SSA's most-complete death records. We 
also found that FEMA and State governments faced challenges in 
obtaining the data necessary to help prevent duplicative payments from 
overlapping sources. In addition, FEMA relied on self-reported data 
from applicants regarding private home insurance--a factor the agency 
uses in determining benefits, as Federal law prohibits FEMA from 
providing assistance for damage covered by private insurance; however 
that data can be unreliable.
---------------------------------------------------------------------------
    \18\ GAO, Hurricane Sandy: FEMA Has Improved Disaster Aid 
Verification but Could Act to Further Limit Improper Assistance, GAO-
15-15, (Washington, DC: Dec. 12, 2014).
---------------------------------------------------------------------------
    In our December 2014 report, we recommended, among other things, 
that FEMA collaborate with SSA to obtain additional data, collect data 
to detect duplicative assistance, and implement an approach to verify 
whether recipients have private insurance. FEMA concurred with the 
report's five recommendations and has taken actions to address them. 
For example, in response to our recommendations, FEMA started working 
with SSA to determine the feasibility and cost effectiveness of 
incorporating SSA's identify verification tools and full death file 
data into its registration process, and expects to make its 
determination by the end of 2015. FEMA indicated that, depending on the 
determination, one option would be to enter into a Computer Matching 
Agreement with SSA.
    FEMA has also approved plans to improve the standardization, 
quality, and accessibility of data across its own disaster assistance 
programs, which includes efforts to enhance data sharing with State and 
local partners, that should allow it to more readily identify 
potentially duplicative assistance. Also, after reviewing various 
options, FEMA has decided to add an additional question to its 
application to help confirm self-reported information on whether 
applicants have private insurance. We are reviewing these actions to 
determine if they reflect sufficient steps to consider our 
recommendations fully implemented.
Disaster Recovery and Resilience
    In July 2015 we reported that during the Hurricane Sandy Recovery, 
5 Federal programs--the FEMA's Public Assistance (PA) and Hazard 
Mitigation Grant Program (HMGP), the Federal Transit Administration's 
Public Transportation Emergency Relief Program, the Department of 
Housing and Urban Development's Community Development Block Grant-
Disaster Recovery, and the U.S. Army Corps of Engineers' Hurricane 
Sandy program--helped enhance disaster resilience--the ability to 
prepare and plan for, absorb, recover from, and more successfully adapt 
to disasters.\19\ We found that these programs funded a number of 
disaster-resilience measures, for example, acquiring and demolishing 
at-risk properties, elevating flood-prone structures, and erecting 
physical flood barriers. State and local officials from all 12 States, 
the District of Columbia, and New York City in the Sandy affected-
region reported that they were able to effectively leverage Federal 
programs to enhance disaster resilience, but also experienced 
challenges. The challenges included implementation challenges within PA 
and HMGP, limitations on comprehensive risk reduction approaches in a 
post-disaster environment, and local ability and willingness to 
participate in mitigation activities. We found there was no 
comprehensive, strategic approach to identifying, prioritizing, and 
implementing investments for disaster resilience, which increased the 
risk that the Federal Government and non-Federal partners will 
experience lower returns on investments or lost opportunities to 
strengthen key critical infrastructure and lifelines. Most Federal 
funding for hazard mitigation is available after a disaster and there 
are benefits to investing in resilience post-disaster. Individuals and 
communities affected by a disaster may be more likely to invest their 
own resources while recovering. However, we concluded that the emphasis 
on the post-disaster environment can create a reactionary and 
fragmented approach where disasters determine when and for what purpose 
the Federal Government invests in disaster resilience.
---------------------------------------------------------------------------
    \19\ GAO, Hurricane Sandy: An Investment Strategy Could Help the 
Federal Government Enhance National Resilience for Future Disasters, 
GAO-15-515, (Washington, DC: July 30, 2015).
---------------------------------------------------------------------------
    In our July 2015 report, we recommended that: (1) FEMA assess the 
challenges State and local officials report and implement corrective 
actions as needed and (2) the Mitigation Framework Leadership Group 
(MitFLG) establish an investment strategy to identify, prioritize, and 
implement Federal investments in disaster resilience.\20\ DHS agreed 
with both recommendations. With respect to the challenges reported by 
State and local officials, FEMA officials said it would seek input from 
Federal, Tribal, State, and local stakeholders as part of its efforts 
to reengineer the PA program, which it believes will address many of 
the issues raised in the report. In addition, DHS said that FEMA, 
though its leadership role in the MitFLG would take action to complete 
an investment strategy by August 2017.
---------------------------------------------------------------------------
    \20\ The Mitigation Framework Leadership Group (MitFLG) is an 
intergovernmental coordinating body that was created to integrate 
Federal efforts and promote a National cultural shift that incorporates 
risk management and hazard mitigation in all planning, decision making, 
and development to the extent practicable. It was established to 
coordinate mitigation efforts across the Federal Government and to 
assess the effectiveness of mitigation capabilities as they are 
developed and deployed across the Nation.
---------------------------------------------------------------------------
    We currently have work underway for this committee assessing 
several of FEMA's disaster response and recovery programs. For example, 
we are reviewing FEMA's urban search and rescue program, incident 
management assistance teams, and evacuation planning, as well as 
National disaster assistance programs for children and special needs 
populations. In addition, we are reviewing DHS's National emergency 
communications programs and efforts to implement the National Disaster 
Recovery Framework.
                       fema's management efforts
Administrative Costs for Managing Disaster Assistance
    In December 2014, we reported on FEMA's progress in taking steps to 
reduce and better control administrative costs--the costs of providing 
and managing disaster assistance.\21\ For example, FEMA issued 
guidelines intended to better control its administrative costs in 
November 2010.\22\ In addition, FEMA recognized that administrative 
costs have increased and it has taken steps such as setting a goal in 
its recent strategic plan to lower these costs, and creating 
administrative cost targets. Specifically, FEMA established a goal in 
its Strategic Plan for 2014-2018 to reduce its average annual 
percentage of administrative costs, as compared with total program 
costs, by 5 percentage points by the end of 2018. To achieve this goal, 
FEMA officials developed administrative costs goals for small, medium, 
and large disasters, and are monitoring performance against the goals. 
However, FEMA does not require these targets be met, and we found that 
had FEMA met its targets, administrative costs could have been reduced 
by hundreds of millions of dollars. We found that FEMA continued to 
face challenges in tracking and reducing these costs. FEMA's average 
administrative cost percentages for major disasters during the 10 
fiscal years 2004 to 2013 was double the average during the 10 fiscal 
years 1989 to 1998.\23\ Further, we found that FEMA did not track 
administrative costs by major disaster program, such as Individual or 
Public Assistance, and had not assessed the costs versus the benefits 
of tracking such information.
---------------------------------------------------------------------------
    \21\ GAO, Federal Emergency Management Agency: Opportunities Exist 
to Strengthen Oversight of Administrative Costs for Major Disasters, 
GAO-15-65 (Washington, DC: Dec. 17, 2014).
    \22\ FEMA, Achieving Efficient JFO Operations: A Guide for Managing 
Staffing Levels and Administrative Costs (Washington, DC: November 
2010).
    \23\ FEMA obligated $12.7 billion from the Disaster Relief Fund 
(DRF) for its administrative costs from fiscal years 2004 through 2013 
that represents 13 percent of the $95.2 billion obligated from the DRF 
for the 650 major disasters declared during this time frame. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In our December 2014 report, we recommended that FEMA: (1) Develop 
an integrated plan to better control and reduce its administrative 
costs for major disasters, (2) assess the costs versus the benefits of 
tracking FEMA administrative costs by the Disaster Relief Fund program, 
and (3) clarify the agency's guidance and minimum documentation 
requirements for direct administrative costs. FEMA agreed with the 
report and its recommendations. As of August 2015, FEMA told us it is 
developing an integrated plan to control and reduce administrative 
costs for major disaster declarations. According to FEMA officials, 
their Disaster Administrative Cost Integrated Project Team has been 
working over the past several months to analyze FEMA's historic 
administrative costs, identify cost drivers, document and evaluate the 
delivery of disaster assistance, and set an improved framework to 
standardize the way FEMA does business.
    FEMA officials previously told us that the plan will describe the 
steps the agency plans take to reduce administrative costs, milestones 
for accomplishing the reduction, and clear roles and responsibilities, 
including the assignment of senior officials/offices responsible for 
monitoring and measuring performance. FEMA also continues to assess the 
costs versus the benefits of tracking administrative costs by program. 
According to FEMA officials, this project requires connecting multiple 
disparate data sources. FEMA has identified some, but not all of the 
data which needs to be integrated in order to be able to track 
administrative costs by program area. FEMA is also evaluating its 
direct administrative costs pilot program, which applies a standard 
fixed percentage towards administrative costs. According to FEMA, if 
successful, results from this program could inform the development of 
additional guidance or regulatory modification and similar approaches 
could be applied in future disasters. For current and other past 
disasters, FEMA told us it plans to provide clarifying guidance. 
According to FEMA, this information will be incorporated into the 
Public Assistance unified guidance document that is scheduled to be 
issued in January 2016.
Workforce Management Efforts
    In July 2015, we reported on FEMA's progress in taking steps to 
address various long-standing workforce management challenges in 
completing and integrating its strategic workforce planning efforts we 
have identified since 2007.\24\ We found that FEMA had not yet resolved 
these challenges and fully addressed our prior workforce-related 
recommendations. However, according to agency officials, they plan to 
do so through efforts to develop: (1) A new incident workforce planning 
model--pending final approval--that will determine the optimal mix of 
workforce components to include in FEMA's disaster workforce, (2) a new 
Human Capital Strategic Plan that was to have been finalized in 
September 2015--that will help ensure it has the optimal workforce to 
carry out its mission, and (3) an executive-level steering committee to 
help ensure that these workforce planning efforts are completed and 
integrated. In addition, we discussed FEMA's continuing, long-standing 
challenges in implementing an employee credentialing system and 
addressing employee morale issues.
---------------------------------------------------------------------------
    \24\ GAO, Federal Emergency Management Agency: Additional Planning 
and Data Collection Could Help Improve Workforce Management Efforts, 
GAO-15-437 (Washington, DC: Jul 9, 2015).
---------------------------------------------------------------------------
    We also reported that FEMA faces challenges in implementing and 
managing its two new workforce components, the Surge Capacity Force and 
the FEMA Corps. (The Surge Capacity Force consists of employees of DHS 
components who volunteer to deploy to provide support to FEMA in the 
event of a disaster. The FEMA Corps are temporary National service 
participants of the National Civilian Community Corps who complete FEMA 
service projects to complement its disaster-related efforts.) For 
example, as of January 2015, the Surge Capacity Force was at 26 percent 
of its staffing target of 15,400 personnel, and FEMA did not have a 
plan for how it will increase the number of volunteers to meet its 
goals. We also found that FEMA did not collect full-cost information, 
including the costs of FEMA Corps background investigations and the 
costs of the salaries and benefits of Surge Capacity Force volunteers 
who are paid by DHS components while they are deployed. Further, we 
concluded that FEMA did not assess all aspects of program performance 
because it does not have performance measures that correspond to all 
program goals and that doing so would better enable FEMA to assess 
whether it was meeting its program goals.
    In our July 2015 report, we recommended, among other things, that 
FEMA develop a plan to increase Surge Capacity Force volunteer 
recruitment and collect additional cost and performance information for 
its new workforce components. DHS concurred with the five 
recommendations in the report and identified related actions the 
Department is taking to address them, primarily focusing on FEMA's 
plans to issue a new strategic workforce plan. However, FEMA has not 
met its September milestone for issuing the plan, but told us it 
expects to issue the plan on October 30, 2015.
Disaster Contracting Management
    We reported in September 2015 on FEMA's progress in building and 
managing its contracting workforce and structure to support disasters 
since enactment of the Post-Katrina Act.\25\ We found that the size of 
FEMA's contracting officer workforce at the end of fiscal year 2014 was 
more than triple the size of its workforce at the time of Hurricane 
Katrina, growing from a total of 45 contracting officers in 2005 to 163 
contracting officers at the end of fiscal year 2014. FEMA's workforce 
increases are due in part to the creation of a headquarters staff in 
2010 charged with supporting disasters, known as the Disaster 
Acquisition Response Team (DART). DART has gradually assumed 
responsibility for administering the majority of FEMA's disaster 
contract spending, but FEMA does not have a process for how the team 
will prioritize its work when they are deployed during a busy disaster 
period. During this period of growth in the size of its contracting 
officer workforce, FEMA has struggled with attrition at times. We found 
this turnover in FEMA's contracting officer workforce has had 
particular impact on smaller regional offices which, with only one or 
two contracting officers, face gaps in continuity. Further, we found 
that FEMA's 2011 agreement that establishes headquarters and regional 
responsibilities in overseeing regional contracting staff poses 
challenges for FEMA to cohesively manage its contracting workforce. For 
example, regional contracting officers have a dual reporting chain to 
both regional supervisors and headquarters supervisors, which heightens 
the potential for competing interests for the regional contracting 
officers. Furthermore, FEMA has not updated the agreement to 
incorporate lessons learned since creating DART, even though the 
agreement states it will be revisited each year. We also found that 
FEMA has not fully implemented the four Post-Katrina Act contracting 
requirements we examined, due in part to incomplete guidance and that 
inconsistent contract management practices during disaster 
deployments--such as incomplete contract files and reviews--create 
oversight challenges.
---------------------------------------------------------------------------
    \25\ GAO, Disaster Contracting: FEMA Needs to Cohesively Manage Its 
Workforce and Fully Address Post-Katrina Reforms, GAO-15-783, 
(Washington, DC: Sept. 29, 2015).
---------------------------------------------------------------------------
    In our September 2015 report, we made eight recommendations to the 
FEMA administrator and one recommendation to DHS to help ensure FEMA is 
prepared to manage the contract administration and oversight 
requirements of several simultaneous large-scale disasters or a 
catastrophic event, to improve coordination and communication between 
headquarters and regional offices with respect to managing and 
overseeing regional contracting officers, and to improve the 
implementation of contracting provisions under the Post-Katrina Act. 
DHS concurred with our recommendations and identified steps FEMA plans 
to take to address them within the next year. Specifically, FEMA plans 
to update relevant guidance and policies related to headquarters and 
regional office roles and responsibilities for managing regional 
contracting officers and disaster contracting requirements.
    We currently have work underway for this committee assessing 
additional FEMA management areas, including assessing FEMA's management 
of information technology systems that support disaster response and 
recovery programs. We plan to report on that work early next year.
    Chairman McSally, Ranking Member Payne, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Ms. McSally. Thank you, Mr. Currie. I now recognize myself 
for 5 minutes for questions.
    So this is really for the whole panel at first. The Post-
Katrina Emergency Management Reform Act is now almost 10 years 
old. We have talked about some of the things that we have seen 
improved from that act, and so the question is are there any 
additional legislative actions that are required based on what 
we have learned from the other disasters in the last 10 years? 
If so, what would those be?
    Starting with Administrator Fugate.
    Mr. Fugate. Well, I think it comes back to what I learned 
when I came to Washington. There are two important things that 
Congress provides, is authorization to do work and 
appropriations to do that.
    But my appropriations is tied more to the Stafford Act. The 
Homeland Security Act is a much broader document. We have, if 
you have read, been charged with supporting everything from 
unaccompanied children, which was not a Stafford Act response, 
to supporting the Centers for Disease Control with instant 
management assistance teams; again not a Stafford Act response. 
Supporting the Gulf Coast oil spill; again, not a Stafford Act 
response.
    The authority is actually in our Homeland Security Act as 
amended. You gave us no limitations. You said we were all-
hazard, we were an agent of the Executive branch, we were the 
principal emergency manager for advice.
    But our funding streams, and our traditional disaster 
dollars and much of that capability, is actually funded out of 
the Stafford Act, which does not recognize all those.
    So I think, again, through the appropriations language and 
the authorization language, one of our challenges, I think--and 
this is to the other Federal agencies--we would prefer not to 
be the agency they wait until it is bad before they ask for 
help. But because they often times have to do interagency 
agreements, or transfer authority for us to do that work, it 
might be helpful to look at our role as to crisis manager 
across Federal Government. Are there tools that can lower the 
bar for other agencies to access or utilize FEMA in that 
support?
    The authorization language you give us gives us that 
ability. But the funding mechanisms, particularly the Stafford 
Act, there are not clean linkages. It would be something to 
consider in carrying out the authorized language what that 
would look like.
    Ms. McSally. Great. Thank you.
    Mr. Koon, any perspectives?
    Mr. Koon. The language in PKEMRA and SRIA, I think, gives a 
lot of what we need to make sure that we have the most 
effective programs across the Nation. I think the complete 
utilization and implementation of those programs, as well as 
what Mr. Currie noted, improving the management and other 
aspects of the organization to help us achieve those outcomes, 
will probably be the most effective at this point.
    So I don't know that, at this point, any additional 
legislation is necessary. It is simply a matter of making the 
most effective use of what is out there today.
    Ms. McSally. Great.
    Mr. Currie.
    Mr. Currie. Yes, ma'am. We haven't been on record talking 
about specific suggestions for legislation. But what I would 
say is kind-of similar to what Mr. Fugate said. I think what we 
have seen over the last 10 years in this explosion of disaster 
spending is not just spending by FEMA. It is spending across 
all departments.
    The example I like to use is, the Forest Service now spends 
almost half of its budget on wildfire suppression. It is way 
different than it was 6 to 8 years ago. So there has been a 
growth and an expansion of this.
    So I think this is really a whole-of-Government response 
and approach to preparing for disasters. Because every, almost 
every, agency in the Government is getting involved in this. 
So, you know, looking at it from that perspective may change 
the way we think about our programs and how we need to prepare.
    Ms. McSally. Great. Thank you. Next, I want to talk about 
mitigation. Several of you talked about it in your opening 
statement. This is of great importance to emergency managers in 
my home State of Arizona. We reached out to them asking for 
their perspectives and inputs on this hearing.
    Most of the mitigation funding is provided through 
Hazardous Mitigation Grant Program after a disaster declaration 
than before. I mean, obviously mitigation, the whole point is 
to address it pre-disaster. So how can we more proactively 
address the mitigation? Some of you touched on it already, but 
if there are any additional points on mitigation you want to 
bring up.
    Administrator Fugate.
    Mr. Fugate. To be brief, one of our challenges when we do 
mitigation, and General Accounting Office, and I am sure 
Director Koon can attest to this, we have to look at cost-
benefit analysis and a lot of gyrations to make sure the 
dollars we are investing give a sufficient return on that. I 
would much rather use building codes and standards.
    What we find in many cases, if we know what the engineering 
standard is and we can point to a standard, it negates the need 
to do a lot of other cost-benefit analysis because it is 
already a code requirement we can build back to.
    So where we can identify those codes and standards--even if 
they are not adopted at the local level--it means, at least for 
the Federal dollars, we are building back to the science versus 
what may have been adopted locally. It lowers the bar and 
workload at the local level to do the cost-benefit analysis to 
justify it.
    Ms. McSally. Great, thanks. Either of the other witnesses.
    Mr. Koon. Madam Chairman, I think there are three potential 
ways we could improve mitigation. One would be, as I mentioned 
in my oral testimony, to streamline the program to make sure 
that we can do it as effectively as possible after a disaster 
using those funds that FEMA provides.
    Second, I concur with Administrator Fugate. By using codes 
and standards and other things, we can tie mitigation into all 
the other funding streams that go into help the construction of 
the built environment and community. So that way, we leverage 
all of the other funds that those communities are using.
    Third, I think by tying it into programs that help us 
reduce insurance cost to future--would ensure that those get 
consideration as we build our environment.
    Ms. McSally. Great. I have another quick question. I know I 
am a little over here. But in a study done by the Fritz 
Institute--you mentioned this, Administrator Fugate--looking at 
perceptions of people that were affected by Katrina, of the 42 
percent affected who did not evacuate 44 percent said the 
reported reason was because they didn't want to leave their 
pets behind.
    I will tell you, I am an animal lover myself and I 
literally would not leave without my rescue Golden, Boomer, 
with me. So I get this. I know we passed the Pets Act in 2006. 
Can you talk about changes that have been made and whether this 
is still an issue?
    Mr. Fugate. It is still going to be an issue jurisdiction 
by jurisdiction. Some States have done better than others, but 
what we clarified was, in our planning and our funding, what 
would be permitted, what we would reimburse for under 
protective measures. We make it quite simple. When we tell 
people to evacuate, we say take your pets with you.
    Part of this is getting people to understand, it isn't 
necessarily about the pets themselves; it is a people issue. If 
people choose not to evacuate or go into harm's way, it adds to 
the workload to the responders. Therefore, it is in the public 
interest to address this. But you cannot bolt it on; it has got 
to be built in. Because if people don't have anywhere to take 
the pets they are not going to evacuate.
    Ms. McSally. Exactly. Great. Thank you. I am over. I 
appreciate it. We might have another round here, but I want to 
give an opportunity for my colleagues here.
    So the Chair now recognizes Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chairman.
    Administrator Fugate, you raised a fundamental issue that 
we have grappled with on this committee since its inception. 
That is the split jurisdictions.
    Stafford Act authority is over in Transportation 
Infrastructure Committee and everything else is over here with 
us. When an emergency occurs, it is the Stafford Act enactment 
that kind-of pushed things out. But we get all the calls, you 
know, the Chairperson and all that.
    So--and I say that for the committee's edification--that we 
really have to fix that and some other things. Because right 
now, DHS testifies before over 100 committees and subcommittees 
here in Congress, and that is just too broad a brush. In time 
of an emergency you really need clear direction. In this 
instance, that is a classic example.
    Mr. Fugate, one of the challenges that I am hearing more 
and more about is whether or not our reserve workforce and 
other thing is as robust as we need it should a catastrophic 
occurrence happen. Can you speak to that?
    Mr. Fugate. Short answer is, you are right. We are not 
there, for a variety of reasons. One is, is changing the 
requirements of the program. Some people chose that that was 
not something they were interested in. But another fundamental 
issue is, these are people who look at this as employment 
opportunities. When we have very inactive years, as we have had 
for the last couple of years, they are not State-engaged.
    So one of our challenges is--our funding mechanisms, you 
know, the military reserve--you do 2 weeks every year, and 
every weekend. For our Reservists, they may not get called up 
or deployed for over a year if there are no disasters.
    So one of our challenges is, how do you get trained people 
ready to go at a moment's notice, but keep them engaged when 
you are not dealing with disasters? That is something that has 
eluded us both a funding issue, but also an engagement issue.
    So we continue to work this. But you are absolutely right, 
our numbers are down. We have changed the program; we are 
trying to bring that program to a higher level. But without a 
retention mechanism, it is always a challenge to train people, 
keep them engaged, and then not deploy them because there is 
lack of activity. Which is a good thing, but it also means it 
is hard to keep an engaged workforce.
    Mr. Thompson. Well--and I think that, Madam Chairperson, as 
a military person--you know readiness is always on point. I 
think at some point, Mr. Administrator, you might have to help 
us make the case from a financial standpoint that we need to, 
you know, better to be prepared for the emergency when it 
happens than not prepared when it happens. Because all of us 
get the blame in that respect.
    So that is a major issue. Obviously, I saw it in Katrina 
and a little bit in Sandy, but we really need to have the 
ability to plus-up when something happens.
    Mr. Koon, can you speak to the agreements that States have 
with FEMA that get called upon, and how, whether or not you 
have seen a difference between States? Is there a uniform 
agreement, and is that uniform agreement applied all the way 
down to the local level?
    Or, you have good areas, bad areas? I think Congressman 
Clyburn is going to talk a little bit about his experience, is, 
when you have, like South Carolina, you have some counties that 
handle it very well and some counties that don't. What kind of 
challenge does that set for from an emergency management 
perspective?
    Mr. Koon. Yes, sir, thanks for the question. Any time you 
have a standing agreement or a prepared agreement ahead of 
time, whether it is between the State and FEMA, or State 
contractors between the county and State, or between States 
like you have with EMAC, it tremendously improves the response 
and recovery capability of that jurisdiction. Because now you 
have worked through all of those issues ahead of time and you 
are ready to execute those at a moment's notice.
    You know exactly what resources the other partner is in 
that situation, you know how to call them into action. You also 
have, as you noted in your opening statement, the ability to 
vet those local organizations who are able to support it.
    So you are able to do a much better job at preparing for 
that local economic recovery by, again, considering ahead of 
time what resources are available in that jurisdiction or in 
that State that will help benefit the economic recovery.
    It can be a challenge at the local level, particularly for 
those more rural jurisdictions, those small emergency 
management agencies, who don't have capability to put into 
place, ahead of time, those kinds of agreements. In those 
situations we encourage States to work with their locals to 
develop some standardized template so that they can utilize 
those.
    Because, again, it really does benefit the community when 
you can put those into place right away. It also helps ensure 
that you are complying with all of the regulations associated 
with the Federal dollars that come into place and so that you 
don't risk audits later on that would deallocate those funds.
    Mr. Thompson. Thank you.
    I yield back, Madam Chair.
    Ms. McSally. The Chair now recognizes Mr. Walker, from 
North Carolina, for 5 minutes.
    Mr. Walker. Thank you, Madam Chairwoman. I do not have 
specifically a question today, but I do have a comment that I 
would like to submit in the record for Administrator Fugate. I 
wanted to take a moment today and thank FEMA and the men and 
women working to respond in our specific times of need in North 
Carolina.
    In fact, our Governor, Pat McCrory of North Carolina, has 
only the best to say about the work FEMA has done in North 
Carolina following Hurricane Joaquin, and we cannot thank you 
all enough.
    Last, I would like to finish today by recognizing Michael 
Sprayberry on his appointment to the FEMA National Advisory 
Council. Mr. Sprayberry is the emergency management director 
for the North Carolina Department of Public Safety, and I feel 
the council made an excellent decision to bring him on board. 
Again, thank you, Administrator, for your work along with the 
rest of the Members.
    I yield back, thank you.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mrs. Watson Coleman, for 5 
minutes, from New Jersey.
    Mrs. Watson Coleman. Thank you, Madam Chairman. I would 
like very much to yield, at this moment, to Mr. Clyburn.
    Ms. McSally. Mr. Clyburn.
    Mr. Clyburn. Thank you very much. I thank the gentlelady 
for yielding. Madam Chair, Ranking Member, I don't know if many 
people realize this or not, but a little over 10 years ago, 
when we experienced Katrina and Rita, I was designated by the 
Speaker of the House to be the Congressional coordinator for 
our response to Katrina and Rita.
    So I spent a lot of time in Louisiana and Mississippi, and 
I learned a lot, which was added to my own personal experiences 
with Hugo 26 years ago.
    Now, what I have found--in keeping with the question raised 
by Ranking Member Thompson--is that there seems to be a natural 
default to State planning. I want to tell you what drives my 
thought on this.
    When I accompanied Secretary Johnson down to South Carolina 
to listen to the State plans, here is what stuck with me from 
that hearing, this quote: ``We may run out of money before we 
reach all of the hard-hit areas, but we know where they are.''
    Now, that bothered me tremendously and I still wake up 
every morning thinking about that statement. Because there is 
no one-stop facility. I think, Mr. Fugate, you mentioned that 
FEMA's limitations--you may not have mentioned this--if you get 
turned down by FEMA, then you got to go to the SBA. Then you 
got to get turned down by SBA for the loan in order to go back 
to FEMA in order to get the assistance. Now, this is not a good 
model for a lot of rural communities, a lot of people who are 
hit the hardest. Especially when they don't have 
transportation.
    Then we set up these recovery centers, and they are not 
one-stop recovery centers. I could see it. If you go to this 
table to talk to FEMA, then walk across the gymnasium or 
auditorium to another table to talk to SBA. In this modern day, 
with all the computers and stuff we got, I don't see why this 
cannot be done, it cannot be a one-stop place for these people, 
because they give up on the process.
    So I am asking, how are these agreements agreed upon; these 
agreements that you seem to default to, these State agreements, 
State-by-State agreements? Do we study them or do we evaluate 
them, or do we just accept what they send to us and then 
respond to it?
    Mr. Fugate. Congressman, we evaluate them and we actually 
do threat hazard assessments and a lot of other tools. But when 
you get to the individual assistance, I am not sure who said 
they were going to run out of money. It is not FEMA. You fully 
funded FEMA in the Disaster Relief Fund. There is not an issue 
on FEMA dollars.
    As it goes to the SBA, FEMA, that is actually how the 
program was designed was it is means tested. If you had 
insurance, your needs are met; there is no need for a grant. If 
you can afford an SBA disaster loan, then that is the 
preferable route. It is only if you don't qualify would you be 
qualified for a FEMA grant.
    Part of what we do in the Government Accountability Office 
looks at this as there are certain things we know that if you 
already are getting certain types of assistance you have 
already met the means test for the grant so we don't have to 
send you to SBA. But if you have an income and the ability to 
repay, we have to get the determination from SBA first. It is 
that information we try to do.
    I agree. I mean, I try to get people to look at this, 
building systems around the survivor. I am just fortunate, sir, 
you found SBA in the same place we were. Previously, we were 
often times set up in different locations. But it is----
    Mr. Clyburn. Excuse me. That is not what I said. We didn't. 
That is the question. The question is: Is it possible to set up 
one-stop? I remember, when we responded to Katrina and Rita, we 
brought planeloads of people from Louisiana to South Carolina. 
When we received them in South Carolina, we put them up in a 
one-stop facility. We had every agency in that one place on the 
University of South Carolina's campus, and nobody had to go 
across town. Everybody could go from desk to desk to desk.
    But that is not what is going on in our response to these 
floods in South Carolina. So my question was: Can you require 
States, in setting up these plans, to make it convenient for 
rural, low-income citizens and require that we have the 
hardest-hit areas responded to in a fashion that is conducive 
to their life's experiences rather than to focus on the 
subdivisions?
    Mr. Fugate. It is a tough one because we work through the 
Governor and the Governor's team. But we have a lot of 
influence. What you are telling me is causing me even more 
concern about some of the other things I have heard. That will 
be addressed, and I will work on that.
    But I still find that, again, our systems are based upon 
the Governor's request, working through the Governor. The 
Governor has to certify cost-share. So I can't take and bypass 
the Governor, but I can be a good partner and point out things 
that we see that we could do better, and focus more on the most 
vulnerable communities.
    Mr. Clyburn. Thank you. Thank you, Madam Chair. I 
appreciate your indulgence, but I just want you to know it was 
not FEMA that said we may run out of the money. It was not 
FEMA.
    Thank you.
    Ms. McSally. It sounds like things we might need to follow 
up on. I really appreciate it.
    Mr. Clyburn. Absolutely. I yield back.
    Ms. McSally. Those are Federal agencies so I think there 
has got to be a way we can mandate that Federal agencies are at 
least in one-stop as we work with the States. So thanks for 
highlighting that.
    The Chair now recognizes Mr. Donovan, from New York, for 5 
minutes.
    Mr. Donovan. Thank you, Madam Chair. I would like to thank 
my colleague from South Carolina. Because I was elected to 
office 13 months after superstorm Sandy and I had to create a 
one-stop shopping for the residents of Staten Island and South 
Brooklyn that were affected by that storm. So I agree with you, 
sir.
    I was always a believer, gentlemen, that Government should 
have less interference in people's lives. But we are to do 
certain things. We are to pick up people's garbage, we are to 
protect our communities with our police and our Nation with our 
armed forces. We ought to come to our citizens' relief at the 
time of a disaster.
    Over the past weeks, my staff has been collecting stories 
from constituents who were affected by superstorm Sandy. I 
represent Staten Island and the southern portion of Brooklyn, 
and these people are still struggling to recover from the 
disaster, in part because of the difficulties they have 
navigating through the complex recovery programs.
    We will be sharing these stories with your office, and I 
hope that together we can work to ensure that similar 
situations do not occur if and when the next disaster we face 
comes about.
    I would like to tell you about a woman, Carolyn Lauer. She 
is 72 years old, a constitute of mine, who, like so many 
others, had invested her life savings in her home and had just 
managed to pay off her mortgage months before superstorm Sandy 
struck our community. As a result of Sandy, her home was 
destroyed.
    Following instructions from FEMA she, immediately after the 
storm, took out an SBA for $126,000 to pay for the repairs of 
her home. Now she was grateful for the loan, but shortly 
afterwards, after she took out that new mortgage grants became 
available in the type that would repair her home. The fact, 
though, is she was ineligible because she took out the SBA 
loan.
    She is now 72 years old and burdened with a new mortgage, 
but was never informed that by taking out the SBA loan she 
would not be available for the future grants from the Federal 
Government.
    Administrator, I just don't know whose responsibility it 
is, and I am not saying it was yours or your agency's. But 
whose responsibility do you believe it should be to inform 
people that if--as my colleague from South Carolina said--
people took out an SBA loan they then would be ineligible for 
future grants? When their neighbors, who did not take out SBA 
loans, were eligible for these grants?
    Mr. Fugate. Well, I would have to look into the direct 
case. It really depends upon on at the point they filed a--the 
SBA was made available.
    During the initial response there was no supplemental 
funds, there was no additional funds for HUD. So at that point, 
that probably was the best information we had. Later, when 
Congress--several months later--passed the Sandy supplemental 
you provided substantial funding to HUD. I am not sure if these 
were the funds they are referring to, but HUD funds are----
    Mr. Donovan. They are, sir.
    Mr. Fugate [continuing]. Available to the State. The States 
then determined how to administer those funds. In many cases, 
they looked at those funds to elevate or repair structures that 
were uninsured.
    But at that point, the time line was when the initial 
application was made FEMA grants were limited to a very small 
amount of money--about $33,000--and that is not going to make 
repairs. The SBA was probably what was available.
    Now, if we knew that the supplemental was going to come 
through and that that would be the decision being made it would 
have been easier to bring all that together. But I think 
because of the time lapse, that was part of the challenge. That 
many of these longer-term recovery funds came in after a lot of 
the initial assistance was being made.
    We roughly saw and distributed about a billion dollars in 
immediate assistance, whether it was rental assistance or other 
direct payments, in about the first 35 days. So a lot of things 
were happening to help people that may have predetermined what 
would be available as other programs came on later. I think 
this goes back to your point, also being raised here. We tend 
to approach disasters--because FEMA's programs don't make 
people whole--that it is a given.
    Mr. Donovan. That is correct.
    Mr. Fugate. We are just basically the beginning of that. 
Other Federal programs which historically have provided that 
assistance--such as HUD, in rural areas the Farm Service 
Agency, and others--have programs that States can use in 
disasters although they are not specifically designed for that 
on the front end. Then through the appropriation process we 
usually give them more authority to do that.
    But now you are coming in as agencies in pieces. So where 
we have this on the front end we try to bring everybody 
together and work with the State on the longer-term recovery of 
bringing those programs together and looking at gaps. But it is 
still a challenge.
    As we saw with Sandy, because of the length of time from 
the initial impact before some of these programs kicked in I 
wouldn't be surprised. But I hope you have given my staff that. 
We will look into this and see what did happen and what was the 
cause of it.
    Mr. Donovan. Yes. The majority of the stories that we have 
collected have to do with the SBA loans. So we will share those 
with your staff. I look forward to maybe a time--I know this is 
a difficult time to speak one-on-one, but maybe at some point 
in the future we could sit down and speak about that. My time 
is up, Madam Chair.
    I yield the rest of it, but hope that we do have a second 
round of questions.
    Ms. McSally. Yes, we will have a second round. Thank you.
    The Chair now recognizes Mrs. Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you, Madam Chairman.
    I would like to just expound a little on this. I am 
wondering, if we are giving States, the authority--the 
Governors--to spend this money, do we set any parameters on how 
they should be using this money? Should we be thinking about a 
model of how that money should be addressed when coming into 
States during and after emergencies?
    Mr. Fugate. I would have to defer to the other programs, 
HUD and others. Because I know with the supplemental they put 
in--and, at that time, it was Secretary Donovan--it was putting 
in some program guidance. But it gives the Governors the 
flexibility to look at, you know, in many cases doing 
elevations or buy-outs of structures, or using this to address 
the gap between uninsured losses and making homes repaired.
    Generally, they are doing it under authority of their 
affordable housing programs. So often times you take existing 
structures and then you adapt it to the disaster. I think if 
you are looking at that, it would be going back to, and perhaps 
Government accountability offices. Because a lot of times these 
monies are trying to come down through existing programs and 
adapted for disaster, they often times bring those legacies 
that don't always fit or communicate across the spectrum.
    Mrs. Watson Coleman. I am concerned about the methodology 
FEMA uses to modify flood insurance maps for my State, which is 
New Jersey. It is also New York. I mean, it is probably other 
States, too, in the country.
    These maps are an important tool developed to quantify 
flood risk all around the country, and they are used not only 
to determine flood insurance premiums--which is an issue for 
me--but also to guide building codes and mitigation activities. 
Subsequently, the determinations have significant real-world 
consequences for families and business owners.
    To date, dozens of New Jersey municipalities have appealed 
these preliminary firms as currently drafted. The fundamental 
methodological errors including, but not limited to, 
inadequacies in validation and deficient HUD effects have 
resulted in erroneous estimates of the 1 percent flood risk 
elevation by several feet.
    So, Administrator, I would like to ask you, when reviewing 
these appeals are you considering the impact that potentially 
flawed methodology would have on the preliminary firms for the 
communities of New Jersey and elsewhere? What are you, what is 
FEMA, doing to address the issue?
    Mr. Fugate. Well, as you point out these are what we call 
the ``preliminary maps,'' and that is part of the process of 
getting the community feedback on it and looking at additional 
data.
    But the challenge with flood insurance maps are, they are 
determining an insurance risk and the level of accuracy is 
corresponding to the level of data. The type of data that would 
be required to actually individually pick out houses is mind-
boggling. So we tend to look at the area, not--and that is why 
you are still required to get elevation certificates for each 
structure.
    But technology is changing so we are looking at how do we 
move from the existing engineering studies that we use to 
determine the flood and how do we get better data.
    In fact, we are partnering, and are joining as part of a 
new center in Alabama bringing together the National Weather 
Service and NOAA, the Corps of Engineers, ourselves, and 
looking at how do we take things like LIDAR and other tools to 
not increase the cost of the mapmaking, but increase their 
accuracy to reduce the errors.
    But as we have found in many cases, as much as we challenge 
and go over this we still see substantial flooding outside of 
the special risk area. So they are not tools that say whether 
areas will flood or not. They are tools to determine when they 
would exceed a threshold for mandatory purchase and increased 
risk for flood insurance.
    Mrs. Watson Coleman. So does FEMA offer technical 
assistance and guidance and--okay, thank you. Another piece of 
this, and this particularly affects Bound Brook in my district. 
Bound Brook has been working on a $130 million flood control 
project for a number of years. Through the Army Corps of 
Engineers as well as FEMA and everybody else actively engaged, 
I took a tour of this just before coming here, last week. They 
are waiting. Even though they have met these conditions, they 
are waiting for a certification that will affect their 
insurance rates. They are being told that they won't get that 
certification until well into 2016.
    Is this an issue that you see in other communities, and is 
there something that we can do when communities have engaged in 
these long-term projects and do qualify for better rates in 
their insurance? Because this is really affecting some of our 
owners.
    Mr. Fugate. I would have to have staff look into this. I 
don't have the specifics of this. I know, in general, what we 
have run into before is when we do get improved projects we 
have to go back in and do the remapping. It is basically a 
resource and time issue. So I don't know what the time frames 
are or what is involved in that. I would have to go back to 
staff.
    But in general, when we do get these we do factor them into 
the new maps. But if it is something where we have to put it 
into it, we have to go back and run the models. It is a staff 
and time issue.
    Mrs. Watson Coleman. That is a really important issue 
because I know FEMA is always busy with the here and now. But 
this is the after-effect when people have made the decisions 
and done the things that they have been asked to do. So we need 
to apply the resources to those so that they are no longer 
negatively impacted financially with their insurance rates. If 
that is an issue with a lack of resources with FEMA we need to 
address that.
    Thank you. Thank you very much. Thank you.
    Ms. McSally. Absolutely. We are going to do a second round 
of questions so the Chair now recognizes myself for another 5 
minutes for a round of questions.
    One question I had, as you were talking about the readiness 
of individuals not getting, you know, the experience that they 
need, is my experience in working at Africa Command in the 
military is with OFDA, USAID Office of Foreign Disaster 
Assistance. You know, similar mission but overseas and the 
support that we provide. But it is the same types of challenges 
that they are dealing with. Do you have any--how do you 
interact with OFDA, and is there a way to do some cross-
pollination between those that are, you know, available to be 
workers for FEMA and getting experience if OFDA is deploying 
overseas?
    Mr. Fugate. Well, I actually got cross-pollinated early in 
my term. I was detailed to OFDA and USAID in the Haiti 
response.
    Ms. McSally. Yes.
    Mr. Fugate. We sent significant response to Haiti. OFDA is 
a much more tiny organization, but we do share back and forth. 
We have communications but it is, again, we actually look 
within the Department of Homeland Security as part of the surge 
workforce and continue to work on how we can use DHS employees, 
which we did in Sandy, to augment the response.
    Ms. McSally. I am just thinking. If OFDA is responding to 
an overseas disaster and they need support, and you have 
personnel that need the experience, if somehow--I know there 
are authorities issues because there are stovepipes in 
agencies--if there was a way to utilize them to get experience. 
But am I dreaming there?
    Mr. Fugate. I would refer to OFDA. What I heard when I went 
over it the last time was, they work in an entirely different 
environment and in an entirely different set of circumstances, 
and it is not an exact transfer although we do similar things. 
It worked to the degree that it worked in Haiti, but----
    Ms. McSally. Yes.
    Mr. Fugate [continuing]. It would be worthwhile pursuing if 
USAID was interested. I would be interested in talking.
    Ms. McSally. Okay.
    Mr. Fugate. I will reach out and we will see what they 
think.
    Ms. McSally. Yes. I have still got some friends there so 
maybe we can work out a meeting and see if there is an option.
    Next question is related to social media. I mentioned in my 
opening statement. I know, Mr. Fugate, you are an avid social 
media--or your organization is--avid social media users. FEMA 
does a pretty good job, I think, of regularly communicating 
through various platforms related to what citizens and 
responders can do before, during, and after emergencies.
    We actually had a roundtable with industry representatives 
from some of the social media companies, discuss new tools--
some that they are using, and some that they are trying to 
develop--that can further enhance capabilities to be resilient 
in a disaster.
    So a question, really, for the whole panel, you know. How 
has the increased use of social media impacted the way you do 
business. You know, are we where we need to be, or are there 
ways that we can use it more robustly?
    Mr. Fugate. Well, I will start and try to be short. I think 
the big difference is, is you make the mistake with social 
media that it becomes another press release. You are going to 
fail. It is actually a two-way conversation. So even in the 
response going into South Carolina, part of what we do is we 
listen and respond back to social media. People oftentimes will 
highlight areas of concern or where they say, hey, you are not 
there, or, we haven't seen you.
    Ms. McSally. Yes.
    Mr. Fugate. So it is that two-way conversation. But you 
have to build that on the front end. You have to build your 
brand so the public knows who you are, that you are trusted, 
and either follow you or come to you during disasters.
    But you also have to make the devices work the way they 
work. You have to communicate with the tools they are using. 
Since I have been in the business we have gone from Twitter to 
half a dozen other things and to, recently, Periscope. So it is 
always we seem to be following where people are using the 
devices because our goal is to communicate with them at their 
level with the information they need.
    Ms. McSally. Right, great.
    Mr. Koon.
    Mr. Koon. I concur with Administrator Fugate. Social media 
is good for outreach, but it is better as an intelligence-
gathering tool for emergency managers to better understand what 
is happening on the ground. We can use it to head off rumor 
control. We should not be leading the charge on which tools we 
are using. We should be following the public and utilizing the 
tools they are utilizing.
    It is also a tremendous way that we can assist--States can 
assist States, localities can assist localities. In the most 
recent storm, as Joaquin was headed to the coast, we used our 
virtual operations support team which is based out of Florida 
State University. It is a group of students who get together 
who monitor social media to help understand what is going on in 
and also push out information to support North Carolina's 
efforts with regards to that.
    That is no cost, no transportation. So that is one way that 
emergency managers can support emergency managers across the 
country at little to no additional cost.
    Ms. McSally. Great.
    Mr. Currie, any input on----
    Mr. Currie. No, ma'am. Unfortunately, at GAO we just 
haven't really done any work on that. A very interesting issue, 
though.
    Ms. McSally. Great. Yes. So last point. You know, in the 
military we often talk about lessons learned, but I always use 
the word lessons ``identified'' because we often don't learn 
them. They become identified, but then if they don't get 
actually implemented then we see the same mistakes over and 
over again.
    Specifically related to this, we had a hearing in this 
committee, subcommittee, about the defense support to civil 
authorities; how the military can support a natural disaster. I 
know I am really running out of my time here, but Administrator 
Fugate, do you have any comments on how we saw that improvement 
related to Sandy? Is there anything else we need to identify 
and actually learn related to the military support?
    Mr. Fugate. Well, again, I think we have got the right 
tools in place. With the idea of dual-status commanders so that 
we can fold Title 10 active-duty and reserves now into a 
Governor's response without having to set up dueling commands 
is a huge step forward.
    But I will give you the most recent example in the floods 
in the Carolinas. We recognized early on that this was going to 
be a rainfall event that would produce significant risk of 
flash flooding, which would then dictate that you are going to 
need a lot of swift-water rescue and helicopters with hoist 
capabilities. Even within the Guard, that is finite capability. 
With the military jurisdictions throughout the area, it was 
important that we work back through NORTHCOM in anticipating 
these resources.
    Admiral Gortney and his team were able to work back through 
the DOD establishment and put quite a few resources at our 
readiness. Basically, we had PJs and choppers ready to go with 
2-hour recall. So that system has improved, it is robust. The 
leadership of DOD--Admiral Gortney and NORTHCOM and FEMA--we 
worked to shorten the time frames from the time a request may 
be needed to we have resources to support the State. This isn't 
about we are getting in front of the TAG. But we want to make 
sure we have the resources in the pipeline so that the TAG 
makes the determination they are going to need additional Title 
10 or Reserve capabilities, we are not waiting for that, it is 
ready to plug in.
    Ms. McSally. Great.
    Mr. Fugate. But it is much-improved, it is dynamic, it is 
getting better each time. I think the goal being seamless 
between the active duty and the Guard will always be, you know, 
there. But it is getting much better than it has been.
    Ms. McSally. Okay, great. My time has expired.
    The Chair now recognizes Ranking Member Thompson for 5 
minutes.
    Mr. Thompson. Thank you very much, Madam Chair. Some of us 
are probably not as adept to social media as we ought to be. 
What is Periscope?
    Mr. Fugate. Oh, it is a----
    Mrs. Watson Coleman. You didn't see that movie?
    Mr. Fugate. It is a----
    Mr. Thompson. No.
    Mr. Fugate [continuing]. It is an interesting tool that 
allows you to shoot live video from your phone, while people 
can send you comments on their Twitter feeds. So if you have a 
Twitter account and you go to Periscope it is like a live 
broadcast and they can actually----
    Mr. Thompson. I understand.
    Mr. Fugate [continuing]. Ask you questions in the middle of 
it.
    Mrs. Watson Coleman. Now you know it.
    Mr. Thompson. Okay. Now I know.
    Mr. Fugate. I didn't know that 6 months ago, sir, so it 
is----
    Mr. Thompson. Okay. One of the things you talked about, 
some of us represent significantly rural populations. 
Basically, so much of that population, just like an inner-city 
population, is at risk when a disaster occurs. To what extent 
do you require States to address that in a plan?
    For instance, I have two cities in my district with public 
transportation. That is it. I have some counties with no form 
of transportation. If we have a disaster, then, you know, if 
you have a vehicle you are fine. But a majority of them do not. 
So is there any oversight or anything that you require States 
to put in a plan for those type populations?
    Mr. Fugate. Yes, sir, and it is primarily with the 
evacuation support and things like that. But I want to go back 
to this idea that you are presenting, which if you remember we 
used to do what we called ``community relations.'' We would go 
in the neighborhoods, we would give them a phone number to 
call, and that is all we did.
    Mr. Thompson. Mm-hmm.
    Mr. Fugate. We are not doing that that way anymore. We are 
going in, and if you haven't registered we are going to 
register you where we find you. This is, again, why I am very 
interested in what is happening in South Carolina: Are we 
missing communities? Because we were up front with the 
Governor. We will go to where people are, they don't have to 
come to us.
    So what we have found, sir, is that if we are going to put 
in the resources to put people on the ground to go door-to-door 
and say here is how you register with FEMA, why don't we just 
register you where we find you so that if you don't have 
transportation you are not having to come find us?
    We know that particularly in the rural areas, those 
communities that aren't on everybody's radar every day are easy 
to miss. So we also work with our GIS folks that when we go 
into these areas--because we start looking at the maps and 
going are there any houses in an area that nobody is talking 
about. Can we get a team out there and just go door-to-door?
    So that is what my expectations are. That we will go to 
where the people are. If that is not happening I need to know 
that to fix it. But we have gotten out of this making them find 
us. I want to go to them and, as much as possible, that first 
contact get them in the system. Then use these recovery centers 
if we need follow-up. But I would much rather set it up where I 
can get to where people are.
    Mr. Thompson. Mr. Currie, have you all looked at this?
    Mr. Currie. Not this issue specifically. But one thing that 
comes to mind is the threat and hazard reduction analysis that 
each State has to do in order to get preparedness grant 
funding. So I would expect that a State with large rural 
populations would look at that as part of its preparedness in 
that process and figure out that that is an area of risk. That 
is something we are going to have to address in a large 
disaster and something we need to prepare better for.
    Mr. Thompson. Mr. Koon.
    Mr. Koon. Mr. Thompson, we have used this in Florida in our 
disasters, and it has two-fold benefits. First of all, it is 
more survivor-centric and meets the needs of those citizens 
where they are. It also meets some of the issues that Mr. 
Currie has addressed with regards to administrative costs. It 
costs a tremendous amount of fixed dollars to run a disaster 
recovery center. If it is in a rural area with limited traffic 
you are wasting money.
    So it is much better to go out there and talk to the folks 
where they are. So I have seen it work very effectively in 
previous disasters in Florida.
    Mr. Thompson. Thank you.
    I yield back.
    Ms. McSally. Thank you. The gentleman yields back.
    The Chair now recognizes Mr. Donovan for 5 minutes.
    Mr. Donovan. Thank you, Madam Chair. As a follow-up, I just 
want to clarify something with the administrator. I know that 
Congress took 3 months to pass the supplemental appropriation. 
But the Federal rules from 2011 preclude SBA loan recipients 
from receiving HUD-funded grants. What my constituents don't 
understand is why they weren't given that information 
originally and advised that if they applied for a loan they 
would be precluded.
    Had they known that applying for the loan may have 
precluded them from those future grants, they may have made 
different decisions. I have other questions I wanted to ask 
you, but I just wanted to clarify that point. That that was the 
majority of the constituent concerns that my office had 
received.
    Mr. Fugate. I understand. Again, since we didn't have the 
HUD program, there wasn't anything that we knew was coming for 
certainty. I actually have to work back through with SBA. 
Because we would not inform them of that because they are 
actually getting an SBA loan.
    So I want to make sure that in our communications--because 
when we refer people to SBA we are not now running the SBA 
program. But I think that your point is, are we making sure 
that as we tell people what programs are available what the 
caveats are is also part of that process. So I will take that 
back and look at how we make sure that as people are coming 
into our program, and if they are being referred to SBA, that 
we include that in that messaging.
    Mr. Donovan. Thank you very much, sir. The Army Corps is in 
the process right now of building a seawall on the eastern 
portion of Staten Island. That mitigating factor, which will 
help reduce the risk of floods, will help to lower people's 
insurance premiums. But at what point, sir, do people actually 
see the reduction?
    I don't know how far into the construction of the seawall 
will they be able to start seeing reductions in their premiums.
    Mr. Fugate. The process would be, if we know this is being 
built and the jurisdiction has asked for their revision of 
their maps even though projects aren't completed, that we know 
they are funded we can actually look at what you want to do 
this as you go through your next insurance cycle--if you are 
going to do any adjustments, is look at what those improvements 
are, map that improvement, and then provide the guidance to the 
write-your-owns as they come up on the next rate cycle.
    But we have taken projects that had not been completed and 
begun that process, knowing that within the window of time it 
is going to be completed and we need to start the mapping. 
Because we will already have what the engineering impacts of 
that will be.
    So, again, I will ask staff to see where we are at on that, 
if we have had that request, and how much have we begun on 
that. We will report back.
    Mr. Donovan. Wonderful, thank you. Before my time runs out, 
my final question really has to do with the folks--a lot of the 
folks in our area live in attached homes, apartment buildings. 
Sometimes they are attached on one side as a semi-attached, 
sometimes they are in the row of townhouses that are attached 
on all sides. They are unable to elevate their homes, as may be 
required by the new restrictions after superstorm Sandy. They 
need some mitigation relief from their premiums, as well.
    I know recently a plan had come out--a document came out--
from FEMA describing what some of these things that these 
families can do to mitigate, aside from elevating their homes. 
But what wasn't attached to that was like the actuarial report 
of saying that if you do these other things that we recommend 
here are the reductions that you will receive. Is that 
something that would come out subsequent to the report being 
issued?
    Mr. Fugate. I would have to ask staff. Again, I know that 
what we have recommended is reducing their impacts. I don't 
know if that would change their rate substantially. I wouldn't 
want to commit, saying if you do this it equals X, because I 
think that is something we have to go back and look at. How 
much do we actually reduce the risk of payouts versus we may do 
a better job of not flooding parts of the contents but we may 
still have a claim to be filed? So I would have to ask staff to 
look at that and see what that looks like.
    Mr. Donovan. Wonderful. Maybe at some point, when we get to 
do the face-to-face, you and I maybe we could go over some of 
those things. I thank you very much, all of you gentlemen, for 
coming today.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Clyburn for 5 minutes.
    Mr. Clyburn. Thank you very much, Madam Chair. Madam Chair, 
I subscribe to your theory that seems to be based upon one of 
my favorite writers, George Santayana, who once wrote if we 
fail to learn the lessons of our history we are bound to repeat 
them. It seems as if we are repeating some of the should-have-
been-learned lessons from Katrina and Rita.
    I always mention Rita because, really, Rita did most of the 
damage over in Mississippi and we seem to forget that. I am 
particularly interested in whether or not if--I will keep my 
fingers crossed--I am successful in persuading enough Members 
of the Congress to do an emergency supplemental for these 32 
counties in my State. We only have 46; two-thirds of the State 
was affected by the storm. We had 19 losses, 19 fatal loss of 
life. We had over 60,000 homes destroyed.
    Now, there is no way in the world these people are going to 
be adequately addressed under current appropriations. We are 
going to have to have some kind of a supplemental to get them 
back on their feet.
    Now, the question is if we are successful down the road, as 
we were with Sandy, is there some way for Congress to deal with 
this issue of the SBA loans? Whether or not these SBA loans--
those people who may have gotten them--under current law they 
would not be eligible for supplemental participation in the 
supplemental. Now, there is something fundamentally unfair 
about that. It seems to be almost inhuman. Is it possible for 
us to address that issue?
    Mr. Fugate. Congressman, my recommendation would be to work 
back with SBA and, potentially, the other agencies that would 
require supplemental, such as--and I would imagine you are 
talking about maybe HUD and Community Block--development grant 
dollars, Federal aid, highway, Farm Service Agency, USDA 
disaster loans, crop damages and stuff.
    Mr. Clyburn. Absolutely.
    Mr. Fugate. That you ask them what are the errors or the 
issues about what you are permitted by law to do that is 
counterintuitive in this case, and is there drafting language 
that could clear the decks. Because if they have a requirement 
that says they cannot--it is usually a duplication of Federal 
benefits--is----
    Mr. Clyburn. Right.
    Mr. Fugate [continuing]. The issue is, do they have 
solutions that you could incorporate into a supplemental that 
would address these things so that, in some cases, you want to 
get SBA loans out there. Because this may take a while and they 
could make repairs. But could they not then seek a 
reimbursement when they get a qualifying grant and pay the loan 
off?
    But it is the fundamental issue of duplication of benefits, 
and I think if you ask the agencies what they would need to 
minimize that or perhaps help navigate those areas, that would 
be the approach I would take.
    Mr. Clyburn. Well, thank you very much for that. But I 
think a lot of times, with us--this is my first elected office. 
I have been here 23 years, but I ran a State agency for about 
18 years, and a county agency for 4 years before that. So I 
know a little something about making these administrative 
decisions.
    Sometimes, often times, we confuse the words ``duplicate'' 
and ``supplement.'' Now, when you are supplementing you aren't 
duplicating. But for some strange reason, we always want to lay 
that supplement on top of the previous to make it a duplication 
rather than a supplemental.
    So I think that these fine lines have got to be dealt with. 
It is too easy to toss people aside by confusing those two. I 
am like Mr. Donovan: One of my constituents had just rebuilt 
after a fire completely destroyed the home.
    They rebuilt from the fire, and within 30 days the whole 
home was wiped out because of the loan. Now, when you rebuild 
after a fire there are some loans or some mortgages being 
assumed. So that family is now destroyed for all intents and 
purposes, for life. They will never regain their footing.
    The way we are looking at some of these rules and 
regulations now, they are just out in the cold, they are not 
going to be able to participate.
    So I am very, very concerned about that, and I would hope 
that as we go forward with this--because these lives that were 
lost, these 19 lives, they were not resisting leaving. They 
were swept away in fast-moving waters. Some of them swept out 
of their automobiles. Just driving along and got swept out of 
their automobiles, and they are found miles away from their 
automobile.
    So there are things here that I really believe we need to 
pay some close attention to. Because in spite of how we may 
argue this issue, I am a firm believer that we are going to 
have more of these disasters going forward. When you are having 
a 500-year event every 10 years, it says something that we need 
to be concerned about.
    Mr. Fugate. Congressman, I----
    Mr. Clyburn. Thank you, and I yield back.
    Mr. Fugate [continuing]. I agree with the issue about 
duplication of benefits. I ran into this myself where we had 
provided individual assistance. But because of delays in 
administering and getting policy paid out with the National 
Flood Insurance program, they often times got loans from the 
Community Block Development Grant dollars and then we were able 
to get the other issues settled.
    So we made a decision--I had this discretion--that we would 
determine that because of the severity of impacts that 
duplication of benefits was not necessarily going to apply if 
you were getting individual assistance and flood insurance 
because the losses were so great. We would do it case-by-case.
    So perhaps that is also giving either the Secretary or the 
administrator of those programs that judgment so they can do it 
case-by-case.
    Sometimes you do blanket, you get unintended consequences. 
But there is always that hardship that if you give the 
administrator that discretion or the Secretary that discretion 
I think you get to some of those hardship cases that otherwise 
we don't have a good response for.
    Mr. Donovan. If the gentleman would yield just for 30 
seconds, we had a case where the people wanted to pay back the 
SBA loan so that they would benefit from the HUD grants and 
they weren't permitted to pay back the loan that they received. 
So you talk about an injustice, sir, you are absolutely right.
    Thank you.
    Ms. McSally. Well, I appreciate both my colleagues here 
raising this issue, and I would like to further have us look 
into whether this is an interpretation of law or whether we 
need a clarification in the law, and then work with the 
relevant other committees to see if we can address that. So 
thanks for highlighting that important issue.
    Mr. Clyburn. Thank you very much.
    Ms. McSally. I want to thank the witnesses for your 
valuable testimony today, and also the Members for their 
thoughtful questions. The Members of the subcommittee may have 
some additional questions for the witnesses. We will ask you 
respond to those in writing. Pursuant to committee rule 7(e), 
the hearing records will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Ranking Member Bennie G. Thompson for W. Craig Fugate
    Question 1a. As we witness the disaster unfolding in South 
Carolina, we are reminded that many counties have not experienced a 
major disaster in over 20 years.
    What support do local governments and other grant recipients 
receive to help them navigate the sometimes byzantine Federal programs, 
requirements, and regulations?
    Question 1b. What can potential recipients do to maximize their 
ability to get a grant and use grant dollars effectively?
    Answer. Interagency Disaster Recovery Coordination/NDRF.--Since 
publication of the National Disaster Recovery Framework (NDRF) in 2011, 
Federal agency partners have made considerable progress in assisting 
State, local, Tribal, and territorial governments to understand and 
access the numerous Federal resources and programs that may be able to 
support disaster recovery efforts. The role of the Federal Disaster 
Recovery Coordinator (FDRC), the field leadership position instituted 
by the NDRF, during disasters such as South Carolina is to support 
State and local governments understand the various Federal assistance 
that could be available, both within and outside of that which is 
provided under the Stafford Act. For example, in South Carolina the 
FDRC facilitated an advisory group to take a holistic look at what 
Federal programs may be available to support the restoration of the 
public and private dams that were impacted from the storms. This was 
not a single program approach, such as using FEMA's Public Assistance 
program, but rather required the whole Federal family to come together 
with the State to identify where programs could work together to 
maximize the recovery funding available.
    In South Carolina, the FDRC is convening several Federal Recovery 
Support Functions (RSF), including the Community Planning and Capacity 
Building (CPCB) RSF. CPCB coordinates and facilitates among Federal and 
non-Federal partners the planning, capacity, and resilience building 
support needed by local or Tribal governments in large or unique 
events. Coordination and partner support is tailored to the needs of 
disaster-impacted States, territories, Tribes, and local governments 
through an information sharing, assessment, and strategy coordination 
process. Examples of coordinated support activities may include:
  <bullet> Education, Peer-to-Peer Forums, and Workshops give local 
        leaders and recovery planners an opportunity to ask questions 
        and benefit from the recovery planning lessons learned by 
        others.
  <bullet> Recovery Planning is often needed by communities to begin an 
        organized process; CPCB Federal partners, as well as 
        universities and NGOs, can pool resources to support 
        communities with planning technical assistance, staffing 
        resources, and funding.
  <bullet> Community Engagement after a disaster can be fraught with 
        challenges, including resident displacement; CPCB partners can 
        advise or support communities with reaching and involving all 
        stakeholders in recovery planning.
  <bullet> Tools, Guidance, Training and other just-in-time materials 
        are available through the Community Recovery Management Toolkit 
        (http://www.fema.gov/national-disaster-recovery-framework/
        community-recovery-management-toolkit) and other partner 
        resources.
Disaster Assistance Reengineering Effort (DARE)/DisasterAssistance.gov
    Looking to the future, FEMA is undertaking a multi-year initiative 
to modernize the DisasterAssistance.gov portal through the Disaster 
Assistance Reengineering Effort (DARE). This initiative will 
significantly reduce annual operating costs, minimize impact of future 
budget reductions and lower the cost of entry for incorporating new 
audiences for the portal, such as community leaders and local or Tribal 
officials.
    The DisasterAssistance.gov portal provides disaster survivors with 
information, support, services, and a means to access and apply for 
disaster assistance through joint data-sharing efforts between Federal, 
Tribal, State, local, and private-sector partners. On December 31, 
2008, DAIP launched a website called DisasterAssistance.gov. The site 
allows you to:
  <bullet> Find disaster assistance that meets your personal needs.
  <bullet> Learn about more than 70 forms of assistance from 17 Federal 
        agencies.
  <bullet> Apply for disaster assistance and reduce the number of forms 
        you have to fill out.
  <bullet> Check the status of your application.
  <bullet> Find a FEMA Disaster Recovery Center (DRC) near you.
  <bullet> Find a hotel or a new place to live.
  <bullet> Find programs to help with food and nutrition needs.
  <bullet> Change the address for your Social Security, VA, or other 
        Federal benefits.
    Learn about Small Business Administration (SBA) loans for 
homeowners, renters, and businesses.
PA
    During the Public Assistance Program grant delivery process, FEMA 
works in partnership with States and Tribes, as the official grant 
recipients, to provide an applicant (i.e. community) with the resources 
necessary to navigate the Federal grant process. Specifically in South 
Carolina, in the beginning phases of the disaster recovery process, the 
State acted as a liaison between FEMA and applicants and was 
responsible for providing applicants with specific information on State 
regulations, documentation, reporting requirements, and technical 
assistance.
    Generally, after the President approves an emergency or major 
disaster declaration, the State will host a meeting with applicants to 
present an overview of the Public Assistance Program, address 
application procedures, administrative requirements and general program 
eligibility criteria. After a community has applied and is determined 
to be eligible for FEMA funding, FEMA will hold a Kickoff meeting, 
which is attended by the State and the applicant. During the meeting, 
FEMA offers technical expertise to help the applicant understand and 
fulfill the Public Assistance Program requirements, the roles and 
responsibilities of the stakeholders involved, and program delivery 
time lines.
    Each community that wishes to receive Public Assistance funding 
must fill out a Request for Public Assistance. It is the applicant's 
responsibility to submit the Request for Public Assistance, identify 
damaged facilities, support all necessary documentation, assist FEMA 
with the project formulation, and review all scopes of work to 
determine accuracy. Applicants can maximize their ability to obtain and 
effectively use grant dollars by supplying all required documentation 
and ensuring they follow any set condition of the grant. FEMA works 
with communities on every step of this process to make it clear that we 
help them through this process.
IA
    On an on-going basis, FEMA Regional staff partner with our State, 
local, Tribal, territorial, and community stakeholders during steady-
state operations to help them understand our programs, requirements, 
and regulations in advance of disasters.
    Following a Presidentially-declared disaster, at the request of the 
State, FEMA, along with our other whole-community partners, staff 
Disaster Recovery Centers and Mobile Disaster Recovery Centers. These 
Recovery Centers serve as a one-stop location where disaster survivors 
can be walked through FEMA's programs and the process to apply for 
disaster assistance. In addition, our Disaster Survivor Assistance 
(DSA) teams provide in-person, tailored outreach in the field to 
register survivors for disaster assistance, provide guidance on the 
registration process, and provide an overview of the assistance 
available through FEMA.
    DSA teams also verify previously-submitted information; provide 
basic information about the status of the application, information on 
other assistance for which the survivor may be eligible, and next steps 
for completing an unfinished application. The teams also do direct 
outreach to State and local officials, as well as to faith-based 
organizations and communities. This outreach allows DSA teams to 
identify disproportionately-impacted communities, populations with 
Limited English Proficiency requirements, low literacy, access and 
functional needs, and work with our whole-community partners to address 
immediate emergency needs, explain our programs, and answer specific 
questions about FEMA disaster assistance.
    Following the completion of their registration, each applicant is 
mailed a copy of Help After a Disaster, which provides a program 
overview, information about next steps in the application process, 
information on documents applicants may need to provide, appeals 
information, and the applicant registration number an applicant should 
reference when contacting FEMA. The booklet also addresses Frequently 
Asked Questions about Individuals and Households Programs about 
assistance. Applicants may also contact the FEMA helpline to discuss 
their specific case and ask questions about the eligible uses of 
disaster assistance.
    Question 2a. Administrator Fugate, GAO has questioned FEMA's 
ability to effectively respond to a catastrophic disaster. In the past, 
you talked about ``catastrophic events that will overwhelm capabilities 
at all levels of the government . . . and challenge even the most 
scalable structures and systems.''
    Please expand on those challenges and how you believe the 
Government can overcome those challenges.
    Question 2b. While planning is important, the ability to execute 
the plan is more important. Can FEMA execute?
    Answer. FEMA and our partners have built robust processes and 
systems to implement the concepts described in our plans. Our regional 
all-hazards, scenario, and location-specific plans are routinely 
executed in response to threats from potential incidents. For example, 
FEMA executed the draft of the Nuclear and Radiological Incident Annex 
to the Response and Recovery Federal Interagency Operational Plans 
(FIOPs) during the Southern Exposure and Marble Challenge exercises in 
2015. The draft was used as the basis for the U.S. Government's Crisis 
Action Plan, drove resource allocation and priorities for the Federal 
Government, and created Unity of Effort between the local, State, 
Federal, and private-sector response and recovery entities. FEMA has 
also executed the plan for a Nuclear Power Plant Accident with the 
Nuclear Regulatory Commission, Department of Energy, Environmental 
Protection Agency, and the Department of Defense alongside the State of 
South Carolina during the Southern Exposure exercise.
    In the past year, we have executed plans for both Guam and Hawaii 
in response to tropical cyclones. These plans were developed and 
executed in partnership not just with the Federal Interagency Working 
Group, but with the impacted State and territory. As Hurricane Joaquin 
moved up the East Coast this year, emergency managers across the 
Atlantic seaboard adapted our Regional Hurricane Annexes and used 
planning factors and decision support tools built around those plans to 
forecast and deploy resources ahead of a storm that could have impacted 
any State on the Atlantic Coast.
    During major exercises, FEMA has executed plans for a Southern 
California Earthquake in partnership with local governments and the 
State of California. FEMA has also executed the plan for a Nuclear 
Power Plant Accident with the Nuclear Regulatory Commission, Department 
of Energy, Environmental Protection Agency, and Department of Defense 
(DoD) alongside the State of South Carolina.
    FEMA has built a robust process for the development of meaningful 
and useful plans, by incorporating lessons learned from exercises and 
real-world events into the development and update of our plans. We 
continue to focus on the rapid and adaptable execution of these plans. 
For example, we are currently building decision support models based on 
common planning factors to drive rapid decision making and resource 
deployment. The agency is partnering with DoD to capture data that is 
required for movement coordination of known resources to facilitate 
their multi-modal transport by any carrier and streamlining our process 
for displaying and executing tasks during an incident.
    Question 3. The Post Katrina Emergency Management Reform Act 
(PKEMRA) included provisions to ensure that small, local businesses are 
included in the response and recovery processes. According to GAO, 
FEMA's progress in implementing PKEMRA's mandates regarding 
noncompetitive contracts and local business contracting is mixed. What 
is FEMA doing to improve guidance for contract officers so that 
PKEMRA's mandates can be better implemented?
    Answer. The Federal Emergency Management Agency (FEMA) trains all 
of its contracting officers through an annual Disaster Contracting 
webinar, which covers the PKEMRA mandate of including local businesses 
in the response and recovery processes. The webinar includes items such 
as the requirement to use local vendors during disasters, the need to 
document the use of a non-local vendor solution, and the process for 
transitioning work from a non-local vendor to a local vendor or 
documenting why the transition did not occur. Also, FEMA is in the 
process of revising its Emergency and Contingency Contracting Desk 
Guide to further address this requirement. These resources are made 
available through the FEMA SharePoint Site. In addition, we recently 
revised the Disaster Contracting course content to expand on this 
requirement. This course is offered to all contracting officers, but is 
mandatory for those having Incident Management (IM) titles. Finally, as 
part of FEMA's Qualification System (FQS), FEMA has established a 
specific IM title within its Acquisition Cadre, called Acquisition 
Business Specialists. These trained individuals are responsible for 
assisting contracting officers by conducting outreach to local vendors, 
determining local vendor capabilities, educating vendors on 
requirements and opportunities for doing business with FEMA and/or the 
Federal Government. Having this critical function as part of the FQS IM 
organizational structure improves the contracting officer's ability to 
increase competition and acquire goods and services from local 
businesses.
    Question 4. Administrator Fugate, FEMA is a very different 
organization than it was 8 years ago. How is FEMA preparing now to 
ensure that the improvements you have initiated are continued after 
your tenure?
    Answer. The agency has matured over the past 8 years, fully 
embracing our mission statement ``to support our citizens and first 
responders to ensure that as a nation we work together to build, 
sustain, and improve our capability to prepare for, protect against, 
respond to, recover from and mitigate all hazards.''
    The first Strategic Plan under my tenure moved the agency in a new 
direction and promoted a whole-community inclusive approach to 
emergency management, acknowledging the important roles played by a 
wide range of community partners, and allowing for a more flexible and 
agile FEMA. The 2014-2018 FEMA Strategic Plan builds on that progress, 
and institutionalized the whole community in ways that will position 
FEMA and its partners to improve outcomes for disaster survivors and 
enhance the Nation's preparedness for and resilience to future 
disasters.
    The Strategic Plan highlights five priorities that help to ensure 
the improvements initiated in my tenure continue throughout the agency. 
These priorities include:
    1. Be survivor-centric in mission and program delivery
    2. Become an expeditionary organization
    3. Posture and build capability for catastrophic disasters
    4. Enable disaster risk reduction Nationally
    5. Strengthen FEMA's organizational foundation.
    Be survivor-centric in mission and program delivery: FEMA must 
recognize and adapt to the needs of the people we serve. Hurricane 
Sandy highlighted that a number of FEMA's programs and processes were 
designed for ease of administration rather than making survivors' 
experience as easy as possible. Individuals and communities face 
overwhelming challenges in the aftermath of a disaster, and they should 
not need an instruction manual to access and navigate FEMA programs. 
Our culture is changing to improve the ways that we anticipate and 
adapt to survivors' needs, maximizing the speed, efficiency, and ease 
of use of our programs and services for individuals and communities.
    Become an expeditionary organization: We have worked tirelessly to 
transform the total FEMA workforce into a more professional and 
deployable organization. Under the theme, ``every employee is an 
emergency manager,'' FEMA is harnessing the dedication and expertise of 
every employee. Through the development of the FEMA Qualification 
System, FEMA gives employees the opportunity to demonstrate and 
document their knowledge and skills in specific incident management 
positions. The qualification system standardizes the qualifications for 
positions across the agency so that an employee who is qualified to 
perform in a given disaster position in one FEMA region will be 
prepared to perform in the same position in another region. This 
maturation of our workforce has transformed the agency to ensure that 
all employees, from our full-time employees to Reservists, are trained 
and qualified emergency managers, making us more expeditionary.
    Posture and build capability for catastrophic disasters: The 
greatest challenge in emergency management lies in preparing for a 
catastrophic disaster during which the impacts are so severe that 
existing plans, coordination structures, communications, and 
capabilities are insufficient and depleted quickly. To be successful, 
FEMA has a culture that works to unshackle ingenuity to devise novel 
solutions. FEMA cannot plan only for events we are capable of 
responding to; we must plan for catastrophic events that will overwhelm 
capabilities at all levels and challenge even the most scalable 
structures and systems. Although we have made progress in improving 
upon our capabilities, we must constantly enhance preparedness, test 
systems, and exercise capabilities so we can support the whole 
community following a catastrophic event--and this must continue after 
my tenure. Our systems and capabilities must be designed so that those 
executing the mission can do so wherever needed, including in austere 
conditions. The agency recognizes that any Government-centric response 
to a catastrophic incident will fail, so we're continuing to work with 
local, State, Tribal, and territorial leaders to engage the whole 
community and to harness and enhance the capabilities of communities 
and citizens.
    Enable disaster risk reduction Nationally: FEMA has taken 
significant steps to improve and increase disaster risk reduction 
throughout the Nation. The FEMA-led interagency Mitigation Leadership 
Group (MitFLG) developed a Federal Flood Risk Management Standard 
(FFRMS) to ensure Federally-funded projects are built to account for 
accurate flood risk. In addition, the agency promotes increased risk-
informed action at all levels of society. FEMA will continue working 
with whole-community partners to identify and address gaps in risk 
management understanding and actions across the Nation--targeting both 
technical and non-technical audiences and meeting the diverse risk 
information needs of the public and private sectors (e.g., homeowners, 
engineers, developers, insurers, urban planners, and emergency 
managers). The agency has pushed the Nation forward on disaster risk 
reduction, but much work remains to ensure our Nation is truly 
resilient.
    Strengthen FEMA's organizational foundation: FEMA has advanced in 
its governance processes to ensure that our organization supports 
FEMA's mission. The agency established the Human Capital Governance 
Board and renewed the Information Technology Governance Board to move 
forward on these critical areas. FEMA has also invested in improving 
its linkages among planning, programming, budgeting and execution to 
ensure strategy-driven resource decisions are conducted across the 
agency. Overall, this has improved our internal processes and will help 
ensure that the improvements are institutionalized as we continue to 
mature our organization.
    The agency looks significantly different than 8 years ago, and the 
transformation to be survivor-centric and expeditionary while focused 
on preparing for catastrophic disasters and reducing disaster risk has 
been institutionalized across the organization.
    Question 5. The Individual and Households Programs has experienced 
notable challenges with respect to improper payments, due at least in 
part to workforce training deficiencies. How is FEMA training its new 
CORPS members and other disaster workforce employees to reduce the risk 
of improper disaster payments, and ultimately future recoupment 
proceedings?
    Answer. Robust and thorough training for new and existing staff 
members is a priority for the Individual Assistance (IA) program and 
Individuals and Households Program (IHP). To provide the technical and 
professional training necessary for FEMA agents to administer the IHP, 
the following programs are in place:
  <bullet> New Hire Training.--Each new agent receives 12+ weeks of 
        training in IHP, including aspects of the program such as 
        registration intake; helpline inquiry and assistance; and 
        manual processing procedures. At the end of the initial 
        training program, supervisors provide on-going coaching and 
        mentoring to agents as they interact with survivors and process 
        their cases.
  <bullet> Refresher Training.--Agents attend refresher classes to 
        review the highlights of their initial IHP training, as well as 
        to ensure that any updates in policy/processing guidance are 
        understood and being applied. In addition, briefings are held 
        throughout the year each time new policy/processing guidance or 
        disaster-specific guidance is implemented.
  <bullet> Quality Reviews.--In order to maintain accuracy of skills 
        and knowledge, the IHP Quality Control department regularly 
        reviews case files and highlights subject matter or processes 
        that are problematic for agents. Using these reviews, custom 
        refresher training and reviews are developed for agents in 
        order to emphasize key points and review essential processes.
  <bullet> Testing/Evaluation Process.--The Training Section has 
        implemented a pre- and post-test process for each IHP course, 
        in order to measure the understanding of the agents and 
        effectiveness of the training materials for the program. 
        Updates/improvements to training materials can immediately be 
        developed, should agent scores reflect a lack of understanding 
        in relation to any of the processing procedures.
  <bullet> Specialized Processing Unit.--In order to minimize the 
        opportunity for improper payments, IA and IHP recently 
        implemented a specialized processing unit that will isolate 
        agents processing those parts of the IHP that are most 
        technically challenging. This Specialized Processing Unit was 
        recently launched after completion of a dedicated 4-day 
        training program for agents that reviewed and tested 
        proficiency in the processing of Continuous Temporary Housing 
        Assistance (CTHA), an element of the program with a high degree 
        of processing complexity. Additional specialized training 
        programs will be developed based on on-going monitoring of 
        quality control reports and supervisor evaluations of agents.
    In addition, since 2005, FEMA has added controls to the assistance 
delivery system that safeguard against waste, fraud, and abuse and 
significantly reduce the percentage of improper payments.
    Question 6a. The results of the 2015 DHS Federal Employee Viewpoint 
Survey once gain spotlight the issue of low morale at the Department.
    Given the expense of hiring and training new employees--both full 
time and the disaster workforce--and the loss of institutional 
knowledge when you lose an existing employee, how is low morale 
affecting FEMA's ability to retain employees across your entire 
workforce?
    Question 6b. How is FEMA addressing retention issues?
    Answer. Improving employee engagement and retaining high-quality 
employees is a priority for FEMA. Based on the Federal Employee 
Viewpoint Survey you referenced, FEMA recently commenced a series of 
studies and programs designed to identify and address the root causes 
of employee concerns.
    FEMA's historical trends in this survey identified potential areas 
where FEMA could increase employee engagement and satisfaction. FEMA 
leadership opted to focus on three critical areas for possible 
improvement: Effective leadership, employee development, and 
performance-based rewards and advancement.
    FEMA organized a series of employee focus groups to identify the 
root causes of negative employee perceptions. After analyzing the 
identified root causes of the problem, FEMA launched a series of 
initiatives to improve engagement and retention. FEMA began a new 
workforce management initiative to improve the process for completing 
personnel actions and increase communications between employees and 
supervisors. Deputy Administrator Joseph Nimmich created the ``Ask 
Us!'' program to provide a two-way communications tool between senior 
leaders and employees. This Q&A session during SES meetings allows 
employees of all levels to ask questions directly to leadership.
    In addition to the formal performance management system, employees 
are allowed to informally recognize contributions of their colleagues 
through the ``You Rock!'' program. Additional focus and training will 
be placed on the leadership and communication skills of first- and 
second-level supervisors to better enable them to relay individual and 
organizational performance goals and metrics.
    Question 7a. FEMA has acknowledged certain challenges with respect 
to staffing, particularly with respect to the disaster workforce.
    Have disaster workforce shortages affected FEMA's ability to 
respond to any recent disasters, such as the South Carolina floods?
    Question 7b. In the event the staffing levels become an issue, what 
plans does FEMA have in place to ensure that FEMA can meet its mission?
    Answer. Current staffing shortfalls have not impacted FEMA's 
ability to respond to any recent disasters. At present, over 2,500 FEMA 
employees are supporting 22 active disasters, and the agency continues 
to deploy its Reservist workforce, FEMA Corps members, and full-time 
employees to meet the needs of communities in a timely and effective 
manner.
    Disaster workforce staffing in South Carolina did, however, reveal 
improvements needed for select cadres in the recruitment and retention 
of our intermittent Reservist workforce. FEMA is working to refine its 
hiring and training plans for all cadres for the next fiscal year to 
ensure it maintains a high level of readiness for a variety of events 
and scenarios. Building and retaining a professional, trained, and 
experienced surge workforce, is critical to the agency's ability to 
conduct its response, recovery, and mitigation missions, and we must 
strive to dedicate additional resources to this effort.
    As articulated in FEMA Strategic Priority 2.2, FEMA continues to 
improve its Reservist program and its ``Every Employee is an Emergency 
Manager'' policy by maximizing the contributions of the agency's full-
time staff to disaster operations. In the last few weeks, the Office of 
Response and Recovery assigned over 500 full-time employees from across 
the agency's Incident Management titles within the Individual 
Assistance and Disaster Survivor Assistance Cadres. These employees 
augment the agency's current capability to provide critical support to 
survivors directly impacted by disasters, ensuring they have access to 
the full range of FEMA programs from their homes and communities. FEMA 
is also working with DHS HQ to grow the size of its Surge Capacity 
Force and develop a more flexible concept of operations for the 
program. Finally, the agency continues to improve its planning efforts 
for disasters by developing time-phased force packages to ensure the 
right personnel arrive at the right time to meet the needs of 
survivors.
    Question 8a. In an effort to improve how FEMA responds to and 
assists in disaster recovery, the agency is currently undergoing an IT 
modernization process, including updating the procurement policies. 
FEMA has completed a security and resiliency review in 2014, but it's 
yet to be released.
    What is the status on the security and resiliency review?
    Answer. FEMA's 2014 IT Resiliency and Security Review was conducted 
between January and September 2014 and covered all 10 Regions, all HQ 
Programs, and offices. Should a detailed brief be required, FEMA can 
host a SECRET Classified briefing regarding the resiliency outcomes.
    Question 8b. How does the report's release impact the agency's 
progress moving forward with IT modernization?
    Answer. The IT Resiliency and Security Review set the baseline for 
a stabilized state of IT mission support, and re-emphasized the need 
for a more optimized state as defined in an ``actionable'' Target 
Architecture. The inventory and sequencing of investments/initiatives 
in the initial version of the FEMA IT Modernization Plan is based 
partially on the collection and ``road-mapping'' of initiatives that 
were identified from the Review. The aggregation and prioritization of 
recommendations from the 2014 Resiliency Review resulted in the 
initiatives that comprise the first year of FEMA's IT Modernization, 
Fiscal Year 2016.
    The Cyber Security and IT Resiliency Review Teams heard the same 
issues from each Region and Program regarding needs for improvement. 
Every in-briefing interview with the Regional Administrators and 
Program Directors cited many of the same needs, requirements, and 
recommendations. Final Cyber Security and IT Resiliency Reports were 
provided at the conclusion at each visit and captured themes for each 
Region and Program. The Regional and Program Office reviews yielded a 
substantial number of recommendations for improving FEMA's use of IT 
and enhancing cybersecurity. Making FEMA resilient and secure requires 
both cybersecurity improvements and better use of IT across the 
emergency management process. The team found many of the same issues 
across the agency, which include (but are not limited to) immature 
security planning, poor configuration management segregation of duties 
issues, and access control. Over 1,000 review items were consolidated 
into 7 imperatives to reform the current state of FEMA IT. Four of the 
imperatives address improvements in cybersecurity and IT management 
practices. Three imperatives highlight specific improvements in the 
application of technology to FEMA needs related to grants and financial 
systems, human resources management and collaboration. The 7 major 
imperatives are:
    1. Ensure a reliable & dependable FEMA in all events.--FEMA must 
        have a proactive IT Cyber Security posture that ensures that 
        FEMA is 100% operational during all phases of the National 
        preparedness cycle as well as the ``Last Agency Standing'' in a 
        disaster, no matter how large or broad the effects are of that 
        disaster.
    2. Create an IT environment that addresses both region and 
        headquarters' needs.--FEMA IT transformation will only be 
        successful in reducing FEMA IT costs and risks if the remaining 
        or new systems both fulfill HQ needs and facilitate regional 
        operations and business processes without requiring 
        workarounds.
    3. Rebuild IT for Continuity of Operations.--FEMA must rebuild, 
        validate, and exercise IT capabilities needed to support 
        devolution and continuity of operations plans.
    4. Replace obsolete IT with cost-effective and trustworthy 
        solutions.--FEMA's dependency on obsolete systems and their 
        associated resource burden degrades its ability to execute its 
        mission and invest in modernization and performance 
        improvements.
    5. Integrate grants and financial management.--FEMA grant and 
        financial systems are incapable of providing end-to-end 
        visibility and management capabilities required to minimize 
        potential and serial disaster loss.
    6. Deploy a comprehensive Human Resource management information 
        system.--FEMA disaster management capabilities are negatively 
        affected by human resources information systems data and 
        transaction processing shortcomings.
    7. Employ a modern collaboration environment for FEMA and its 
        partners.--Although Regions operate under a unique set of 
        environmental conditions, they all require modern approaches 
        for collaboration, data sharing, and engagement with State, 
        Tribal, territorial, and local partners.
    The 2014 Cyber Security and IT Resiliency Review also stabilized 
FEMA's IT portfolio through a structured process of assessing each 
system's compliance with Security requirements, issuance of full or 
conditional Authorizations to Operate (ATOs) and identification of Plan 
of Actions and Milestones (POAMs) with supporting business cases to 
address security shortcomings. Systems with significant weaknesses, 
redundancies or obsolescence were shut down.
    Question 9. With respect to FEMA's efforts to improve disaster aid 
verification, the agency agreed with GAO's recommendation and developed 
a Corrective Action Plan. Please provide any additional updates to 
those recommendations, and whether or not FEMA envisions continuing to 
adhere to the time line.
    Answer. This response is in reference to the GAO-15-15 Internal 
Controls in FEMA's Individuals and Households Program (IHP).

Recommendation 1: Collaborate with SSA to assess the cost and 
feasibility of checking used SSNs that were ineligible or belonged to 
likely deceased individuals, document the results of this assessment, 
and if determined to be cost-beneficial take steps to implement a 
partnership to use SSA data.

    FEMA's Disaster Assistance Improvement Program (DAIP) has had 
discussions with representatives from Social Security Administration 
(SSA) regarding the possibility of conducting an assessment of recent 
disaster survivor registrations that were filed with social security 
numbers (SSNs) that were ineligible or belonged to likely deceased 
individuals. DAIP engaged the SSA in May 2015, to begin planning the 
assessment process for the purpose of determining whether integrating 
SSA's Enumeration Verification System and death file data will provide 
additional checks and balances against potential fraud by disaster 
assistance applicants. One of the options to address the intent of this 
recommendation, depending on the outcome of these discussions, may be 
to enter into a Computer Matching Agreement (CMA) with the SSA.
    If the assessment determines that use of the SSA data would improve 
the FEMA data validation process to help reduce fraud, waste, and 
abuse, the resulting proposed sharing relationship between FEMA and SSA 
would fall under this requirement, and in this circumstance, would 
require development of a CMA. DAIP continues to target December 31, 
2015 for completion of this assessment and determination.

Recommendation 2: Assess the cost and feasibility of addressing 
limitations in FEMA's control identifying duplicate information in 
applications in high-risk data fields--such as SSN, bank-account 
information, address, and phone number--that may currently allow 
individuals or households to improperly receive multiple payments, and 
if determined to be cost effective take steps to address the system 
design limitation.

    FEMA's DAIP is evaluating the cost and feasibility of incorporating 
new controls in the registration intake process for identifying and 
flagging duplicate information in high-risk data fields for the purpose 
of reducing multiple payments to individuals or households. FEMA is on 
target to complete this analysis by December 31, 2015.
    Outside the requirements of this recommendation, DAIP has begun to 
re-engineer the registration intake capability as part of its system 
modernization plan. Any new controls identified from the above analysis 
for the purpose of flagging potentially duplicate records to reduce 
multiple payments will be incorporated into the re-engineering effort, 
which will result in a new system to be deployed in calendar year 2017.

Recommendation 3: As part of updates to the legacy systems, redesign 
the compliance flag in the IHP system to clearly identify and document 
applicants' compliance with NFIP requirements at the time when 
assistance for flood-related damage was provided through IHP.

    FEMA has worked with the developers to ensure that as additional 
checks are run during the life-cycle for a disaster survivor's 
application processing, the system will record changes so they are 
easily viewed and queried to show the appropriate status for each phase 
of the assistance process. FEMA has finalized requirements and obtained 
a cost estimate. A single Change Request (CR) was made to the National 
Emergency Management Information System (NEMIS) Individual Assistance 
database to add an audit table for the National Flood Insurance Reform 
Act (NFIRA) and National Flood Insurance Program (NFIP). This audit 
table will allow those with access rights to NEMIS data, including the 
U.S. Government Accountability Office (GAO), to obtain all NFIRA/NFIP 
compliance for an applicant throughout the process, no matter how many 
times the compliance flag changes. NEMIS will still display the current 
compliance flag, but an audit table with compliance data will be 
available to the GAO and individuals with access rights to NEMIS. This 
CR was approved for the next NEMIS release, and FEMA provided its 
requirements to the developers. FEMA is on target to complete these 
changes to NEMIS by May 31, 2016. Interim milestones are included 
below. Everything remains on target.

------------------------------------------------------------------------
            Interim Milestones               Estimated Completion Dates
------------------------------------------------------------------------
Begin requirements gathering process......  Completed.
Baseline requirements & Obtain Cost         Completed.
 Estimate from development contractor.
Requirements definition with development    Completed.
 contractor.
Complete development & testing............  12/31/2015.
Information Technology (IT) Independent     03/31/2016.
 Verification & Validation Testing &
 Deployment Approvals.
Production Deployment (this change would    05/31/2016.
 coincide with our large NEMIS release,
 scheduled between March and May each
 year).
------------------------------------------------------------------------

Recommendation 4: As part of its committee that is implementing 
enhanced data-sharing between Public Assistance and Individual 
Assistance programs, establish data-reporting requirements for States, 
including specific fields needed and a standard process for comparing 
information across programs, including IHP and STEP, to better position 
FEMA to evaluate such pilot programs and to help prevent potential 
duplicative payments.

    On December 5, 2014, FEMA established an enterprise Data Governance 
Board co-chaired by FEMA's Deputy Administrator and the Chief 
Information Officer (CIO) to provide executive oversight of initiatives 
to enhance data sharing, including between Public Assistance and 
Individual Assistance. The Board is focused on developing current and 
target data architectures, which will help to normalize data across 
programs, and improve the quality and accessibility of enterprise data. 
Data governance will allow for the comparison of information across 
programs, including the Individuals and Households Program (IHP) and 
Sheltering and Temporary Essential Power (STEP), to better position 
FEMA to evaluate such pilot programs and to help prevent potential 
duplicative payments.
    As part of this effort, the Data Governance Board has set up a Data 
Stewardship program that creates positions such as Data Stewards who 
will be responsible for working with the program experts to standardize 
and clarify data fields across the agency. For example, FEMA identified 
that the term ``state'' could refer to a location, a program status, or 
an event. Various types of data have been grouped into ``Data 
Families'' to better organize the standardization process, such as 
location, finance, programs, authorities, incidents. The first step 
FEMA will take is to standardize the fields for location-based data.
    Further, in accordance with the FEMA Strategic Plan, emphasizing 
Office of Management and Budget (OMB) guidance on requirements and 
business case development, the Office of the Chief Information Officer 
(OCIO) plans to implement a technical solution in partnership with 
FEMA's Public Assistance program and the Recovery Analytics Division. 
The technical solution is contained within the OCIO Enterprise 
Architecture and was approved by the aforementioned Data Governance 
Board as well as the Information Technology Governance Board (ITGB) in 
September 2015. The ITGB is an executive body that oversees agency-wide 
information technology investment and strategy and is also co-chaired 
by FEMA's Deputy Administrator and the CIO. The OCIO Enterprise 
Architecture will feature web services to provide data to FEMA's 
partners including State, local, and Tribal governments.

------------------------------------------------------------------------
            Interim Milestones               Estimated Completion Dates
------------------------------------------------------------------------
IT Governance approval of target            Completed.
 infrastructure and data domain of the
 FEMA enterprise architecture.
DHS policy and technical solution           Completed.
 resolution and approval for
 implementation of target design.
Completion of logical design of             12/31/15.
 infrastructure and data domains for
 implementation and completion of proof of
 concept test with external partner using
 simulated data.
FEMA Cyber Security assessment and          02/29/2016.
 approval of target infrastructure and
 data domain design.
Completion of Data Center infrastructure    05/31/2016.
 and data domain enhancements in
 Development Environment.
Completion of all testing of Data Center    05/31/2016-09/30/2016.
 infrastructure and data domain
 enhancements in Test Environment.
Deployment of target data sharing           09/30/2016.
 capability in Production Environment.
------------------------------------------------------------------------

Recommendation 5: Evaluate options, including costs and feasibility, to 
identify an approach for verifying the accuracy of self-reported 
information FEMA receives on whether applicants have private homeowners 
insurance. Such options could include posting additional questions to 
applicants, sharing data with Federal agencies to identify Federally-
backed mortgages, or developing a data-sharing approach with private 
insurance companies. 

    FEMA has evaluated options for posing additional questions to 
applicants and sharing data with Federal agencies to identify 
Federally-backed mortgages.
    FEMA conducted an analysis that included re-evaluating 
opportunities to collect clarifying information on self-reported 
insurance at the time of registration. Auditors reviewed the 563 cases 
identified by the GAO as having received FEMA assistance for damage to 
a property that had a Federally-backed mortgage that required 
homeowners insurance (HOI).
    Based on the case review, FEMA determined that it is cost 
beneficial to add a question at registration intake asking if a 
homeowner applicant has a mortgage. FEMA determined that 424 of the 563 
cases with Federally-backed mortgages received $794,122 in assistance 
for home repairs or personal property losses typically covered by HOI. 
Estimated costs for implementing a question at registration intake are 
approximately $25,000. As the cost for adding a question is less than 
the amount of Federal assistance provided without such a question, it 
is cost-beneficial to add this question.
    In addition, FEMA attempted to assess requirements for data sharing 
with Federal mortgage agencies and discussed the approach with Fannie 
Mae and Freddie Mac representatives. Based on the analysis, these 
entities maintain information regarding each mortgage's lender, but not 
insurance provider, coverage, or status. Therefore, FEMA would still 
need to request additional information from the applicant regarding 
insurance policy coverage as the potential data-sharing arrangement 
alone would not provide definitive information to avoid potential 
duplication with insurance benefits.
    During registration intake, FEMA currently asks homeowners if they 
have insurance. FEMA plans to add a question during the next 
registration intake re-engineering effort (scheduled for release in 
calendar year 2017) that asks homeowners, ``Do you have a mortgage for 
the damaged residence?'' If the applicant reports having a mortgage but 
no insurance, FEMA will obtain additional information from the 
applicant prior to providing forms of assistance typically covered by 
insurance. Adding this new question will provide an additional control 
that improves the methodology to confirm the existence or absence of 
insurance. FEMA considers the risk of duplication of benefits 
mitigated, and on August 27, 2015, FEMA requested that the GAO close 
this recommendation.
    Question 10. Challenges still remain with respect to certain core 
capabilities in the National Preparedness Report. How does FEMA plan to 
address the consistently lowest-ranked capabilities, particularly with 
respect to recovery capabilities and disaster housing?
    Answer. The Federal Emergency Management Agency (FEMA) believes 
that States, territories, urban areas, and Tribes should determine 
their priorities for closing their capability gaps through the 
implementation of the National Preparedness System (NPS). The National 
Preparedness Goal (the Goal) defines the core capabilities necessary to 
prepare for the threats and hazards that pose the greatest risk to the 
security of the Nation, and it includes concrete, measurable objectives 
to manage that risk. The NPS is the instrument to build, sustain, and 
deliver the core capabilities in order to achieve the Goal. States, 
Tribes, territories, and urban areas should use the NPS to determine 
priorities for closing their capability gaps.
    FEMA requires grantees to implement the NPS and tracks their 
progress in both fulfilling the components of the System and in closing 
capability gaps. As part of this requirement, States, territories, 
major urban areas, and Tribes receiving funds from the Homeland 
Security Grant Program or Tribal Homeland Security Grant Program, 
update Threat and Hazard Identification and Risk Assessments (THIRAs) 
annually and submit them to FEMA. Once a jurisdiction has determined 
their capability targets through the THIRA process, the jurisdiction 
assesses its current capability levels against those targets. States 
and territories submit these capability assessments annually through 
the State Preparedness Report (SPR). Taken together, the THIRA and the 
SPR identify capability needs and gaps. These products allow the Nation 
to look holistically across all capabilities and whole-community 
partners to gauge areas of strength and areas for improvement. FEMA 
requires States to use a set of tools, including the THIRA, SPR, and 
grant funding Investment Justifications that help States assess 
improvements in first-responder capabilities and State-wide 
preparedness. FEMA then uses the data from these assessments to drive 
the strategic direction of its planning, training, exercise support, 
and technical assistance programs to ensure they are helping 
communities build and sustain their capabilities.
    FEMA has several guidance products and training programs devoted to 
increasing State, local, Tribal, and territorial understanding of 
developing and applying recovery core capabilities in a coordinated 
effort. The eight recovery core capabilities include planning; public 
information and warning; operational coordination; economic recovery; 
health and social services; housing; infrastructure systems; and 
natural and cultural resources. Two examples include, The Effective 
Coordination of Recovery Resources for State, Tribal, Territorial and 
Local Incidents published in January 2015 (available on FEMA.gov at 
https://www.fema.gov/media-library/assets/documents/101940) and the E89 
NDRF Regional Leadership Workshop are two examples.
    The National Preparedness Report highlights that the area of 
housing lacks sufficiently-trained Federal personnel to assist in 
large-scale incidents. Furthermore, States and territories have 
insufficient training options that address housing processes and 
programs. Additional challenges continue to impede progress, including 
coordination of transitions in authority from response to long-term 
recovery; funding variability caused by supplemental disaster 
appropriations; timing of available housing options; and limited State 
resources to execute disaster-housing operations. The 2016 National 
Preparedness Report will explore whole-community actions currently 
underway to achieve progress in the core capabilities repeatedly 
identified as National areas for improvement.
    The Federal Recovery Support Functions (RSFs) improve Federal 
planning and preparation in the 8 core capability functional areas. The 
6 RSFs, including the Housing RSF led by the Department of Housing and 
Urban Development, have been planning, training, and exercising 
together since 2011. The Recovery Support Function Leadership Group 
(RSFLG) conducted its first core capability readiness assessment in 
2015. This process provides an initial baseline on the full range of 
capabilities Federal departments and agencies have to support the State 
and local recovery efforts. Future development of Federal support 
capabilities will be easier to plan and monitor against the 2015 
findings.
    FEMA has taken steps to improve coordination and ensure that 
survivors affected by disasters return to safe, secure, and functional 
housing options as soon as possible following a declared disaster. Our 
efforts are focused on providing tools that support individual 
recovery; improving the disaster registration process; collaborating 
with our whole-community partners to ensure immediate mass care needs 
are addressed; reducing improper payments; addressing the needs of 
disproportionately-impacted communities; and better supporting State 
and local officials to identify the housing options that best meet 
needs, and streamlining disaster assistance delivery.
    Question 11a. The data that State and local jurisdictions use to 
identify capability gaps for the THIRA and State Preparedness Report is 
also used to help close preparedness capability gaps.
    Can FEMA use this data to determine whether grant investments 
either mitigate threats improve National preparedness?
    Question 11b. Since grant investments must be linked to capability 
gaps or requirements, how does FEMA track how those gaps are being 
closed with appropriate grant investments?
    Answer. FEMA uses the data from the THIRA and SPR process to 
determine whether proposed grant investments will build capabilities 
needed to close identified capability gaps. States and territories 
receiving HSGP grants are required to prioritize funding to address 
these gaps. Grant applicants submit an Investment Justification (IJ) 
that details the activities, in the form of projects, which the 
applicants will conduct during the 3-year period of performance. 
Applicants are required to align each project to one of the core 
capabilities in the National Preparedness Goal and identify the 
National Incident Management System typed-assets that support the 
capability. Applicants also identify if the investment will be used to 
sustain or build greater capacity within the capability.
    To ensure that HSGP applicants are directing their investments to 
the appropriate capabilities and associated Planning, Organization, 
Equipment, Training, and Exercise resource elements, FEMA evaluates how 
well their IJs align to their most recent SPR.
    The 2015 IJ-SPR alignment review indicated that 97 percent of 
applicant IJ projects were directed towards investments that increase 
capability for high-priority core capabilities with low capability 
levels.
    The THIRA and SPR allow the Nation to look holistically across all 
capabilities and align grant investments to mitigate threats and 
improve National preparedness.
    Question 12. FEMA stated in its most recent Strategic Goal that it 
seeks to reduce administrative costs associated with disasters by 5% by 
2018. However, there is no formal guidance or hardline requirements 
detailing how this goal should be achieved. What progress has FEMA had 
in developing a plan to track and monitor administrative costs 
associated with disasters?
    Answer. The plan is in the final stages of the agency's concurrence 
process. The agency expects to send the plan to the GAO no later than 
December 4.
    Question 13a. Earlier this year, the National Advisory Council 
recommended that you appoint a technical expert to advise on the unique 
needs of children during a disaster. I understand FEMA concurred with 
that recommendation.
    Please describe the activities this technical expert undertakes to 
help ensure the unique needs of children are incorporated in disaster 
plans.
    Question 13b. To what extent does the technical expert coordinate 
activities with relevant interagency partners, such as the Department 
of Education and the Department of Health and Human Services?
    Answer. FEMA concurred with the National Advisory Council 
recommendation. In July 2015, FEMA established the position of a 
National Advisor on Children and Disasters within the Office of 
External Affairs. This individual is responsible for leading the 
agency's efforts to ensure that children's disaster-related needs 
continue to be integrated and implemented into all disaster planning, 
preparedness, response, and recovery efforts initiated at the Federal 
level. In this role, the Children's Advisor works hand-in-hand with 
subject-matter experts throughout FEMA, and collaborates closely with 
Federal, State, local, Tribal, non-Governmental partners, and pediatric 
experts across the Nation.
    The National Advisor on Children and Disasters previously worked in 
unison with the former National Commission on Children and Disasters 
(Commission), Department of Education, Department of Health and Human 
Services, Department of Justice, non-governmental organizations, and 
many other external partners and pediatric stakeholders to establish 
resources and tools within FEMA to address the Commission's 
recommendations, while supporting all external efforts wherever 
applicable.
    One example depicting how the National Advisor ensures that 
children's disaster-related needs are incorporated into disaster plans 
would be the Post Disaster Reunification of Children: A Nation-wide 
Approach, recently cited in Save the Children's 2015 Report Card. The 
development of this guidance was led by FEMA's former Child Coordinator 
(current National Advisor) and the National Center for Missing & 
Exploited Children, with participation from the Federal family; the 
States of Arizona, Louisiana, Missouri, New York, and Nevada; the 
American Red Cross, external stakeholders, and pediatric experts from 
across the Nation. Each of these National partners continue to work 
together in order to socialize elements of this document with their 
respective stakeholders.
    FEMA's efforts continue to evolve, and we recognize the importance 
of implementing children's disaster-related needs into our program 
delivery and training. The coordination with our Federal and external 
partners and identification of cross-cutting programs to support 
children in the affected communities and States throughout their short- 
and long-term recovery is vital to FEMA's program delivery and the 
disaster services provided for children. This has proven to be 
incredibly evident, especially during disaster operations in Joplin, 
Missouri; New Jersey; and Moore, Oklahoma. Therefore, FEMA is committed 
to institutionalizing newly-established resources and tools throughout 
agency, and to further integrate disaster services and resources to 
meet the needs of children in disasters throughout the Nation.
    Question 14. GAO has reported that FEMA employees do not always 
highlight all of the grant options--like the Hazard Mitigation Grant 
Program--to potential grant recipients. What is FEMA doing to ensure 
that potential recipients have all of the information they need about 
grants they may be eligible for?
    Answer. FEMA offers three Hazard Mitigation Assistance (HMA) 
programs to support States, Tribal governments, and local communities 
in implementing cost-effective, long-term hazard mitigation measures. 
The HMA programs are the Hazard Mitigation Grant Program, the Pre-
Disaster Mitigation program, and the Flood Mitigation Assistance 
program.
    FEMA continues to work with our State, territory, and Tribal 
partners through training and workshops to ensure that all mitigation 
grant programs and their corresponding policies, guidance, tools, and 
job aids are understood and available to all interested parties. In 
fiscal year 2015 FEMA provided:
  <bullet> 47 training courses which consisted of over 680 Federal, 
        State, and local officials on HMA programs and HMA tools.
  <bullet> On-line HMA training for over 330 Federal, State, and local 
        officials.
  <bullet> Updated HMA Guidance with 23 associated job aids which 
        further streamlines the HMA programs. The job aids provide 
        detailed information on a number of program-related issues 
        including Tribes as HMGP applicants, procurement and the HMGP 
        declaration process. FEMA also issued several other job aids 
        prior to the end of the fiscal year for Climate Resilient 
        Mitigation Activities.
  <bullet> 3 webinars regarding the updated HMA Guidance that includes 
        all of FEMA's mitigation grant programs allowing over 600 
        Federal, State, and local officials to learn the changes to 
        program guidance.
  <bullet> Numerous emails to the 46,000 mitigation www.govdelivery.com 
        subscribers concerning HMA grant program information including 
        mitigation best practices, mitigation success stories and 
        opportunities for grants.
  <bullet> Direct technical assistance to States, territories, and 
        Federally-recognized Tribes from FEMA Regional Office staff.
  <bullet> 2 cost-estimating webinars which allowed 60 Federal and 
        State officials to learn more about cost estimating for HMA 
        grants.
  <bullet> An Updated HMA Program Digest which provides an easy to use 
        reference for common HMA program terms.
  <bullet> Detailed responses to questions for over 200 calls and 230 
        emails received on FEMA's benefit cost analysis helpline.
  <bullet> Responses to over 850 emails and calls to the HMA helpline 
        from State and local officials and private citizens requesting 
        information on HMA programs.
  <bullet> State Mitigation Program consultations (State mitigation 
        plans) with States began in fiscal year 2015 to foster better 
        coordination between State and FEMA staff concerning mitigation 
        grants and mitigation planning.
     Questions From Honorable James E. Clyburn for W. Craig Fugate
    Question 1. Mr. Fugate, in your testimony, you mentioned that in 
the Individuals and Households Program, many individuals will only 
qualify for a FEMA grant if they do not qualify for an SBA loan. For 
those falling into that category, the process therefore requires three 
successive applications before aid is granted. Is there a way that upon 
individuals' first applications to FEMA, their ineligibility for a loan 
could be determined, and the grant processed upon the initial 
application?
    As I mentioned, having to complete three different applications 
before receiving aid is a cumbersome process that many of my 
constituents are having trouble completing. Especially in rural areas, 
where many residents are still grappling with how to rebuild after the 
floods, this has been the greatest concern I have heard from my 
constituents and is a real hindrance to South Carolina's recovery from 
this disaster.
    Answer. The Individuals and Households Program (IHP) consists of 
two components, Housing Assistance and Other Needs Assistance (ONA). 
Under IHP, an applicant does not have to first apply to SBA, before 
being determined eligible for housing assistance, which includes Home 
Repair, Rental Assistance and/or Temporary Lodging.
    However, certain categories of ONA are what is known as ``SBA 
dependent'' or ``non-SBA dependent.'' Under section 408 of the Stafford 
Act, ONA includes medical, dental, funeral, childcare, personal 
property, and transportation assistance, and assistance for other 
expenses. Because applicants may be eligible to receive low-interest, 
long-term loans from SBA to help with personal property, 
transportation, and moving and storage assistance, these categories of 
assistance are known as SBA dependent and under 44 C.F.R.  206.119, 
unless FEMA determines at registration that the individual or household 
will be unable to pass SBA's income test, the applicant must first 
apply to SBA for a loan before requesting assistance from FEMA. If 
approved, SBA loans eliminate the need for ONA grants and thus avoid 
the issue of duplication of benefits to applicants. If FEMA is able to 
determine at registration intake that an individual's income falls 
below SBA's threshold, they are immediately considered for any SBA-
dependent ONA they've applied for. For the non-SBA dependent ONA 
categories of medical, dental, funeral, and child care assistance, the 
applicant is immediately processed for FEMA assistance.
    Question 2a. Mr. Fugate, we have discussed my concerns with FEMA's 
deference to State policy decisions. While appropriate in many cases, I 
truly believe that by not doing independent analysis of significant 
policy decisions, FEMA, in some instances, is not providing the best 
results.
    Under your authorizing statutes, does FEMA have the authority to 
make independent decisions in implementing relief programs if you judge 
it in the best interest of Federal policy? If so, have you ever used 
such authority on a particular decision?
    Question 2b. Finally, when funds are provided through supplemental 
appropriations after the fact for disaster recovery, can FEMA and other 
agencies administering them make decisions independent of Governors on 
how relief programs are implemented and aid is distributed?
    Answer. FEMA is not monolithic, but works in daily partnership with 
its Federal, State, local, and Tribal stakeholders per the requirements 
of the National Incident Management System and the National 
Preparedness System.
    Yes, FEMA is charged with implementing the Stafford Act disaster 
relief programs authorized under a declaration, particularly the 
Individual Assistance (IA) Program, see 44 C.F.R. 206.110(c): ``FEMA 
shall determine the appropriate types of housing assistance to be 
provided . . . '', and the Public Assistance (PA) Program, See 44 
C.F.R. 206.226(e): `` . . . the Regional Administrator may require cost 
effective hazard mitigation measures not required by applicable 
standards.'' and (g): ``[t]he Regional Administrator may approve 
funding for and require restoration of a destroyed facility at a new 
location . . . ''. FEMA, through the Federal Coordinating Officer is 
also responsible for coordinating relief including the activities of 
State, Tribal, and local governments and it is responsible for 
establishing the Joint Field Office although it will consult with the 
State/Tribe regarding location as this affects the ability of the 
State/Tribe to co-locate personnel with FEMA. FEMA works with the 
State/Tribe and local governments regarding establishment of Disaster 
Recovery Centers to ensure adequate coverage, although location and 
duration is ultimately FEMA's decision to make.
    As an example, FEMA routinely determines whether to implement a 
direct housing program to provide temporary housing units under the IA 
Individuals and Households Program (IHP). While input from the State/
Tribe is considered, the determination is solely FEMA's to make to 
ensure that applicants' disaster-related temporary housing needs are 
appropriately addressed.
    Generally, how a disaster relief program is implemented and aid is 
distributed is under the Federal Agency's purview. Depending on the 
underlying authority, the Federal Agency may be able to promote or 
limit assistance based on policy considerations although the State/
Tribe may have some say within limits depending on the particular 
program. For example, under IHP Other Needs Assistance (ONA), which is 
cost-shared and which may be administered by the State/Tribe, the 
State/Tribe under its administrative plan can determine whether certain 
types of personal property may be eligible (chain saw reimbursement for 
example) or the amount of assistance for certain categories of eligible 
expenses such as for funerals or vehicle replacement.

                                 [all]
</pre></body></html>
